<html>
<title> - THE IMPACT OF ISIS ON THE HOMELAND AND REFUGEE RESETTLEMENT</title>
<body><pre>[Senate Hearing 114-543]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 114-543
 
      THE IMPACT OF ISIS ON THE HOMELAND AND REFUGEE RESETTLEMENT

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS


                             FIRST SESSION

                               __________

                           NOVEMBER 19, 2015

                               __________

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs
        
        
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                    U.S. GOVERNMENT PUBLISHING OFFICE
                   
 22-475 PDF                 WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001   



        
        
        
        

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin Chairman
JOHN McCAIN, Arizona                 THOMAS R. CARPER, Delaware
ROB PORTMAN, Ohio                    CLAIRE McCASKILL, Missouri
RAND PAUL, Kentucky                  JON TESTER, Montana
JAMES LANKFORD, Oklahoma             TAMMY BALDWIN, Wisconsin
MICHAEL B. ENZI, Wyoming             HEIDI HEITKAMP, North Dakota
KELLY AYOTTE, New Hampshire          CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     GARY C. PETERS, Michigan
BEN SASSE, Nebraska

                    Keith B. Ashdown, Staff Director
     Brooke N. Ericson, Deputy Chief Counsel for Homeland Security
             Elizabeth McWhorter, Professional Staff Member
              Jose J. Bautista, Professional Staff Member
              Gabrielle A. Batkin, Minority Staff Director
           John P. Kilvington, Minority Deputy Staff Director
       Harlan C. Geer, Minority Senior Professional Staff Member
               Holly A. Idelson, Minority Senior Counsel
                     Laura W. Kilbride, Chief Clerk
                   Benjamin C. Grazda, Hearing Clerk
                   
                   
                   
                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Johnson..............................................     1
    Senator Carper...............................................     3
    Senator McCaskill............................................    14
    Senator Ayotte...............................................    15
    Senator Tester...............................................    17
    Senator Baldwin..............................................    19
    Senator Heitkamp.............................................    21
    Senator Peters...............................................    23
Prepared statements:
    Senator Johnson..............................................    55
    Senator Carper...............................................    57

                                WITNESS
                      Thursday, November 19, 2015

Hon. Anne C. Richard, Assistant Secretary for Population, 
  Refugees, and Migration, U.S. Department of State..............     6
Hon. Leon Rodriguez, Director, U.S. Citizenship and Immigration 
  Services, U.S. Department of Homeland Security.................     7
Peter Bergen, Director, National Security Studies Program, New 
  America Foundation.............................................    28
Brian Michael Jenkins, Senior Advisor to the President, RAND 
  Corporation....................................................    30
Daveed Gartenstein-Ross, Senior Fellow, Foundation for Defense of 
  Democracies....................................................    32
Eric P. Schwartz, Dean, Humphrey School of Public Affairs, 
  University of Minnesota, and Former Assistant Secretary for 
  Population, Refugees, and Migration at the U.S. Department of 
  State (2009-2011)..............................................    34
Lavinia Limon, President and Chief Executive Officer, U.S. 
  Committee for Refugees and Immigrants..........................    35

                     Alphabetical List of Witnesses

Bergen, Peter:
    Testimony....................................................    28
    Prepared statement...........................................    73
Gartenstein-Ross, Daveed:
    Testimony....................................................    32
    Prepared statement...........................................   101
Jenkins, Brian Michael:
    Testimony....................................................    30
    Prepared statement...........................................    90
Limon, Lavinia:
    Testimony....................................................    35
    Prepared statement...........................................   117
Richard, Hon. Anne C.:
    Testimony....................................................     6
    Prepared statement...........................................    60
Rodriguez, Hon. Leon:
    Testimony....................................................     7
    Prepared statement...........................................    64
Schwartz, Eric P.:
    Testimony....................................................    34
    Prepared statement...........................................   110

                                APPENDIX

13-Step Vetting Process..........................................   122
Acronym List submitted by Senator Johnson........................   124
Statements submitted for the Record from:
    Asian Americans Advancing Justice............................   126
    The American-Arab Anti-Discrimmination Committee.............   129
    American Immigration Council.................................   135
    American Immigration Lawyers Association.....................   143
    Columban Center for Advocacy and Outreach....................   146
    Christian Reformed Church....................................   148
    The Center for Victims of Torture............................   149
    Church World Service.........................................   152
    Disciples Home Missions......................................   153
    Franciscan Action Network....................................   154
    Human Rights First...........................................   155
    Gainesville Florida Interfaith Alliance for Immigrant Justice   161
    International Rescue Committee...............................   162
    Jesuit Refugee Service/USA...................................   165
    Leadership Conference of Women Religious.....................   167
    Lutheran Immigration and Refugee Service.....................   168
    National Advocacy Center of the Sisters of the Good Shepherd.   173
    NAFSA Association of International Educators.................   174
    National Council of Jewish Women.............................   177
    Niskanen Center..............................................   178
    OCA-Asian Pacific American Advocates.........................   183
    Presbyterian Church..........................................   186
    Religious Action Center of Reform Judaism....................   188
    Refugee Solidarity Network...................................   189
    Shoulder to Shoulder Campaign................................   190
    Syrian American Medical Society..............................   192
    Southeast Asia Resource Action Center........................   195
    T'ruah: the Rabbinic Call for Human Rights...................   198
    United Methodist Church......................................   200
    United States Conference of Catholic Bishops Committee on 
      Migration..................................................   202
    Unitarian Universalist Service Committee.....................   214
    We Belong Together...........................................   216
    Welcoming America............................................   217
Responses to post-hearing questions for the Record from:
    Ms. Richard..................................................   218
    Mr. Rodriguez................................................   227
    Mr. Bergen...................................................   233


      THE IMPACT OF ISIS ON THE HOMELAND AND REFUGEE RESETTLEMENT

                              ----------                              


                      THURSDAY, NOVEMBER 19, 2015

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:14 p.m., in 
room 342, Dirksen Senate Office Building, Hon. Ron Johnson, 
Chairman of the Committee, presiding.
    Present: Senators Johnson, Portman, Ayotte, Ernst, Sasse, 
Carper, McCaskill, Tester, Baldwin, Heitkamp, Booker, and 
Peters.

             OPENING STATEMENT OF CHAIRMAN JOHNSON

    Chairman Johnson. This hearing will come to order.
    I think it is appropriate that we begin today with a moment 
of silence out of respect for those individuals that have lost 
their lives in Paris and in Beirut and in Egypt, over just the 
last 3 weeks, as the result of the Islamic State of Iraq and 
Syria (ISIS) barbaric activities. So, a moment of silence, 
please.
    [A moment of silence was observed.]
    Thank you.
    I welcome our Ranking Member.
    Senator Carper. Thank you.
    Chairman Johnson. When I took over as Chairman of this 
Committee, working with Senator Carper, we developed a rather 
simple mission statement for the Committee. It is, simply, to 
enhance the economic and national security of America. We have 
committed ourselves to that.
    The threat of ISIS, of Islamic terror, threatens both. I 
mean, we have seen the tragic loss of life repeatedly. 
Obviously, that threatens national security. But think of the 
economic harm, as well, that these acts of terror result in. 
So, it is fitting and appropriate that this Committee, the 
Senate Committee on Homeland Security and Governmental Affairs, 
take up this very serious issue of the threats that ISIS poses 
across the board.
    Now, in speaking with Ms. Richard earlier, she acknowledged 
that the topic, the primary topic, is really about the 
administration's plan to allow about 10,000 refugees in from 
Syria. We are a compassionate, humane society. And, so, we are 
going to lay out the reality in terms of what the vetting 
process will be to make sure that we maintain a secure Nation, 
that we minimize, if not eliminate, the risk that any of those 
refugees may cause America.
    So, from our secure briefings I think we are going to hear 
of a pretty robust vetting process, and so I really do 
appreciate not only the Department of Homeland Security (DHS), 
with U.S. Citizenship and Immigration Services (USCIS), with 
Mr. Rodriguez, but also the State Department (DOS) sending Ms. 
Richard here. I know this is very short notice, but I truly do 
appreciate and I think everybody on this Committee appreciates 
the fact that you are taking the time to lay out that reality 
for the American public.
    Refugees could pose a risk. But, I think, when we take a 
look at what the vetting process will be and we consider all 
the risks that ISIS poses to America, we may find there are far 
greater risks. I think in our briefings, we have had questions 
by members of our visa programs, whether it is the Visa Waiver 
Program (VWP) or student visas or the whole panoply of visas 
that we offer. What are the types of controls? What are the 
types of vulnerabilities? How are we exposed because of the 
openness of our society? I think all of these things are very 
appropriate questions and I think they definitely need to be 
explored.
    But, if you really want to take a look at where we are most 
vulnerable, this Committee has dedicated border security as one 
of the priorities on the homeland security side of our 
Committee. We have held 12 separate hearings on that problem, 
trying to lay out the complexity, the difficult nature of that 
problem. And the conclusion that certainly I have come to, I 
think most Committee members have come to, is our borders are 
not secure.
    A few members, including Senator Carper and I, made a trip 
down to Honduras and Guatemala a couple of weekends ago and 
there was a new--apparently, it is not new, but it is the first 
time I had heard this. I had always heard ``other than Mexico'' 
(OTM), and frequently described in our Committee hearings, this 
would be frequently people from Central America.
    But when we were down in, I believe it was Guatemala, I 
heard a new term, Special Interest Aliens (SIAs). Now, 
currently, most of those are Cubans coming in through Central 
America, taking advantage of the dry foot policy in terms of 
immigration law. But, we were also told that this includes 
Syrians and Somalis and Pakistanis. This is a concern to us. I 
believe there were five Syrians just apprehended in, it was 
Honduras. We had some Syrians apprehended at the border. Now, 
again, we do not know what threat level. I think it is being 
reported that they were not a threat. But this is a serious 
concern.
    We have heard now the new government in Canada is going to 
open up and potentially streamline their refugee program to 
allow 25,000 Syrian refugees. We have certainly discovered in 
this Committee that our border with Canada is far from secure. 
Again, our border on the Southwest is very, very far from 
secure. The one metric that stands out in my head proving how 
unsecure our border is, General Barry McCaffrey testified that 
we are only interdicting somewhere between five and 10 percent 
of drugs coming in through our Southern border.
    So, again, we have to look at all the vulnerabilities. We 
will talk about the refugee and the vetting process, and it is 
fitting and appropriate we do so. But, we really do need to 
understand the threat that we face. It is real. It is growing.
    And coming from a manufacturing background, I have done a 
lot of problem solving, and the first step in solving any 
problem is first laying out the reality, acknowledging that 
reality, looking for the root cause. And let us be honest. The 
root cause of this problem is that ISIS exists, that it was 
able to rise from the ashes of what was a defeated al-Qaeda in 
Iraq. And, so, what we need to do is address the root cause--
the refugee crisis, the flow into Europe, the fact that we are 
even here today considering bringing in, on the basis of 
compassion, refugees from Syria. That is a symptom of the 
problem.
    The root cause is ISIS, and so the solution is committing 
this Nation, together with a coalition of the willing, of the 
civilized world, to destroying, to defeating ISIS. That is a 
goal that President Obama stated, degrade and ultimately defeat 
ISIS. I would argue, ``ultimately'' ought to be very soon.
    So, again, I want to thank the witnesses, not only this 
panel but also the next panel for taking the time to testify 
and for your thoughtful testimony. I look forward to the 
questions.
    Chairman Johnson. With that, I will turn it over to Senator 
Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thanks, Mr. Chairman.
    Let me just set aside my prepared remarks--I would ask 
consent that they be submitted for the record\1\--and make a 
couple of comments, if I can.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Carper appears in the 
Appendix on page 57.
---------------------------------------------------------------------------
    A lot of attention paid to refugees coming from Syria to 
the United States. In the last year, there have been about 
2,000 refugees. It is not an easy process to go through, as my 
colleagues know. It is a process that can take as much as 2 
years. And, it starts with vetting by the United Nations 
(U.N.), one of their high commands, and if folks make the cut 
to get to the next step, then they go through a bunch of 
screens, such as personal interviews and in-person interviews. 
Data, to the extent that we have data files to check, we do all 
those. The Department of Homeland Security does some of them. 
We work with other countries with whom we are allied.
    Out of the 2,000 that have come in as refugees in the last 
year or two, about 2 percent were military-aged males--2 
percent. And of the folks that have come to our country so far, 
I am told, out of those 2,000, not one person has been 
arrested. Not one person has been arrested.
    It takes 2 years, and it is a process that if I were a bad 
guy trying to get in, that is the last place I would try, the 
last way I would try to get in. If I were a bad guy trying to 
get in, I might try a Visa Waiver Program, a Visa Waiver 
Program, and I might try just coming over as a student or as a 
tourist.
    The good news, I understand out of the four French 
nationals who were killed in Paris, either three or all four of 
them were folks who never would have been allowed to get on a 
plane because we had them suitcased in terms of who they were. 
They would never get on a plane to come to the United States.
    One of the things, the challenges for us, I think, is to--
understand, we have had a hearing already this year on visa 
waivers, I recall, and we need to go back and dust off the 
books, see what we learned in terms of how we are strengthening 
that program. A lot has been done. What started off as a travel 
facilitation program has now become an information sharing 
program with 38 other nations. In order for them to participate 
in this program with us, they have to agree to provide access 
to every kind of data file, intelligence file, that we ask for, 
and if they do not, then they are not included as one of the 
visa waiver countries.
    One of the latest, one of the other developments not too 
long ago, was if you want to be a Visa Waiver Country, of these 
38 countries, you have to make sure that if somebody's passport 
is stolen or lost, it is reported to Interpol. And that way, 
when somebody shows up using, trying to use that passport to 
come to the United States or some other place, they can be 
stopped in their tracks.
    The Preamble to our Constitution says, ``In order to form a 
more perfect union.'' My guess is that as much as we are trying 
to make the Visa Waiver Program better, it still is not perfect 
and our goal should be perfection. We are going to work on it 
every day, and I think there are some things we can do 
legislatively, hopefully in this Committee, and to work with 
some of our other colleagues in Committees of jurisdiction.
    The last thing that I would say, we face a moral dilemma 
here. The Pope was in town 2 months ago, spoke to all of us, 
invoked the golden rule, treat other people the way we want to 
be treated, invoked Matthew 25, the least of these, when I was 
a stranger in your land, did you take me in, and everybody 
stood up and applauded in our joint session--you may recall 
that--when he said those words. And now, we are not so sure we 
believe those words.
    And the question is, we have a moral imperative to the 
least of these, to treat other people the way we want to be 
treated. We have an equally strong moral imperative, and I 
think a duty by virtue of our oath of office, to make sure that 
we do not meet the moral imperative, to the least of these, by 
putting at risk the citizens of this country.
    And the question for us is, can we do both? Can we do both? 
I think we can, and I think, morally and just by common sense, 
we need to do both, and our challenge is to figure out how to 
do that and to thread the needle, build on the good work that 
has been done, and to continue to go for it.
    The last thing I will say is this: The Department of 
Homeland Security is doing good work in communities where there 
is heavy, a large Muslim population in this country, just to 
try to make sure that we inoculate, we are inoculating, help 
those communities 
inoculate against the success--and the Chairman has mentioned 
this--the success of efforts to use social media to radicalize 
our own people. And, there is a request by the administration 
to increase the funding for that program. It seems to be 
working. And, I think as we consider the appropriations bills 
in the near future, I hope we will keep in mind what works and 
do more of that, including in this regard.
    And, lastly, there is a fellow named Adam Szubin--Adam 
Szubin--who was heavily involved in a leadership role when we 
were trying to cutoff Iran's access to international financial 
markets, when we were trying to cut off North Korea and their 
access to international financial markets. And, I understand he 
has been nominated at a very senior position within Treasury to 
do that work, to lead that effort, including cutting off ISIS 
financially, and there is obviously work that still needs to be 
done.
    Senator Heitkamp, is that nomination still pending in the 
Banking Committee?
    Senator Heitkamp. It is still pending. We held his hearing, 
so the hearing has been completed, pending a vote in the 
Banking Committee.
    Senator Carper. Yes. This Committee has done great work in 
making sure that the senior level of leadership in the 
Department of Homeland Security, all those vacant positions a 
year and a half ago, they have been filled, and we have done 
very good work in that regard. This is another nomination that 
could be very helpful in terms of the root cause, cutting off 
ISIS's money. It is all well and good if we crush them on the 
battlefield, but in terms of making sure that their money is 
gone, this is a good way to do it, and we have a good guy who 
is willing to serve. We need to get him done.
    Thank you.
    Chairman Johnson. Thank you, Senator Carper. I also have an 
opening statement that I would enter in the record,\1\ without 
objection.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Johnson appears in the 
Appendix on page 55.
---------------------------------------------------------------------------
    A couple of housekeeping items. It is great we have such 
strong attendance, so we are going to limit questions to 5 
minutes.
    I thought there might be a few acronyms being thrown 
around, so I did have our staff publish a little acronym 
glossary\2\ here to speed things along, as well as a 13-step 
vetting process\3\ put out by the U.S. Committee for Refugees 
and Immigrants, again, just to help the Committee as we are 
asking questions.
---------------------------------------------------------------------------
    \2\ The acronym list referenced by Senator Johnson appears in the 
Appendix on page 124.
    \3\ The 13-step vetting process provided by U.S. Committee for 
Refugees and Immigrants appears in the Appendix on page 122.
---------------------------------------------------------------------------
    Chairman Johnson. With that, it is the tradition of this 
Committee to swear in witnesses, so if you will both rise and 
raise your right hand.
    Do you swear the testimony you will give before this 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you, God?
    Ms. Richard. I do.
    Mr. Rodriguez. I do.
    Chairman Johnson. Thank you. Please be seated.
    Our first witness is Ann Richard. Ms. Richard is the 
Assistant Secretary of State for the Bureau of Population, 
Refugees, and Migration at the U.S. Department of State. Prior 
to her appointment, Ms. Richard was the Vice President of 
Government Relations and Advocacy for the International Rescue 
Committee (IRC), an international aid agency that helps 
refugees, internally displaced, and other victims of conflict. 
Ms. Richard.

   TESTIMONY OF THE HONORABLE ANNE C. RICHARD,\1\ ASSISTANT 
    SECRETARY FOR POPULATION, REFUGEES, AND MIGRATION, U.S. 
                      DEPARTMENT OF STATE

    Ms. Richard. Thank you very much, Senator Johnson, Senator 
Carper, all the Senators on this important Committee, for 
holding this hearing today on the impact of ISIS on the 
homeland and refugee resettlement. I have provided some 
testimony that talks about the humanitarian assistance we 
provide overseas, that talks about our diplomacy in the 
humanitarian area, working with other countries, but what I 
would like to focus on right away is the refugee resettlement 
process.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Richard appears in the Appendix 
on page 60.
---------------------------------------------------------------------------
    I know the murderous attacks in Paris last Friday evening 
have raised many questions about the spillover of not just 
migrants to Europe, but also the spread of violence from war 
zones in the Middle East to the streets of a major European 
capital. Let me assure you that the entire executive branch, 
and the State Department that I represent here today, has the 
safety and security of Americans as our highest priority.
    As an essential, fundamental part of the U.S. Refugee 
Admissions Program (USRAP), we screen applicants rigorously and 
carefully in an effort to ensure that no one who poses a threat 
to the safety and security of Americans is able to enter our 
country. All refugees of all nationalities considered for 
admission to the United States undergo intensive security 
screening involving multiple Federal agencies. These are 
intelligence, security, and law enforcement agencies, including 
the National Counterterrorism Center (NCTC), the Federal Bureau 
of Investigation (FBI's) Terrorist Screening Center (TSC), and 
the Departments of Homeland Security, State, and Defense (DOD). 
Consequently, resettlement is a deliberate process that can 
take 18 to 24 months, as you mentioned earlier.
    Applicants to the U.S. Refugee Admissions Program (USRAP) 
are currently subject to the highest level of security checks 
of any category of traveler to the United States. These 
safeguards include biometric, or fingerprint, and biographic 
checks and lengthy in-person overseas interviews by specially 
trained DHS officers, who scrutinize the applicant's 
explanation of individual circumstances to ensure the applicant 
is a bona fide refugee and is not known to present security 
concerns to the United States. These DHS interviewers report to 
Director Rodriguez as part of his leadership of USCIS, so he is 
really the expert on this.
    What I would like to say is that the vast majority of the 
three million refugees who have been admitted to the United 
States, including from some of the most troubled regions in the 
world, have proven to be hardworking and productive residents. 
They pay taxes, send their children to school, and after 5 
years, many take the test to become citizens. Some serve in the 
U.S. military and undertake other forms of service for their 
communities and our country.
    I am happy to answer any questions you have about any part 
of my testimony that I did not get into, but I think the hot 
issue today is the security aspects of our program and, 
therefore, I am very pleased to be here today to answer any 
questions. Thank you.
    Chairman Johnson. Thank you, Ms. Richard.
    Our next witness is Leon Rodriguez. Mr. Rodriguez is the 
Director of U.S. Citizenship and Immigration Services at the 
U.S. Department of Homeland Security, which plays a key role in 
the U.S. Refugee Admissions Program. Prior to this position, 
Mr. Rodriguez served as the Director of the Office for Civil 
Rights at the Department of Health and Human Services (HHS) and 
Deputy Assistant Attorney General for Civil Rights at the 
Department of Justice (DOJ). Mr. Rodriguez.

 TESTIMONY OF THE HONORABLE LEON RODRIGUEZ,\1\ DIRECTOR, U.S. 
   CITIZENSHIP AND IMMIGRATION SERVICES, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Rodriguez. Thank you, Chairman. Thank you, Ranking 
Member. Thank you, Members of the Committee. And thank you in 
particular for convening this very timely hearing.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Rodriguez appears in the Appendix 
on page 64.
---------------------------------------------------------------------------
    I am going to use the time that I have to do something 
which I think is really critical at this juncture, which is to 
lay out with some care how the refugee screening process works, 
what its structure is, what its redundancies are, and what the 
resources are that are utilized as part of that process.
    Most refugees, the overwhelming majority in the case of 
Syrians who enter the U.S. screening process, are first 
encountered in refugee camps. In the case of Syrians, the 
majority of those will be either in Turkey, Jordan, or Lebanon. 
Their first encounter is with the United Nations High 
Commissioner for Refugees (UNHCR), where they register their 
claim for refugee status. Some are referred to the United 
States. Others are referred to other countries that have also 
expressed a willingness to the United Nations to receive 
refugees.
    The United Nations conducts an interview. It explores 
possible inadmissibilities that may apply, either in the case 
of the United States or in other countries. It also makes a 
determination of priority based on particular vulnerabilities 
of populations.
    Once those determinations are made, if, in fact, there is a 
cognizable claim and there do not appear to be significant 
inadmissibilities, at that point, the U.N. refers that 
individual or that case--because very typically, these come to 
us not as single individuals, but rather as family units that 
are traveling together--to whatever country it is, in our case, 
to the State Department, where a series of things occur.
    At that point, a second interview is conducted by Ms. 
Richard's staff and a set of biographic checks, and this is a 
very important element of the process, are conducted at that 
point. The checks conducted include query holdings, State 
Department holdings, including databases that are of an 
intelligence nature, Security Advisory Opinions (SAOs) in a 
large number of the cases, which is a database hosted by the 
FBI, and very critically for our discussion here, what is 
called the interagency check, which is a network of queries 
hosted by the National Counterterrorism Center of a broad swath 
of intelligence and law enforcement holdings.
    I know we have talked a lot about the comparison between 
this case and Iraq. The fact is, when we talk about Syria, we 
are talking about the Islamic State of Iraq and the Levant 
(ISIL), we are talking about al-Nusra, we are talking about the 
Syrian government itself, all of which have interests and 
desires very much adverse to those of the United States.
    There is a constant process of gathering information about 
what is going on in those places, and as a result, in several 
cases, or in a number of cases, our queries of those databases, 
at that phase, have registered hits. Those hits have been the 
basis either to deny outright admission to individuals or to 
place people on hold.
    If the individual clears the State Department process, they 
are then referred to USCIS. We have the benefit of all the work 
that has been done prior--the State Department interview, the 
U.N. interview, and the fruits of those background checks. We 
place in particular those officers who work in environments 
like Syria or others through a particularly rigorous battery of 
both training and pre-deployment briefing, as well as 
apprenticeship while they are out in the field. With that 
briefing, they then conduct very intensive interviews of the 
individuals to identify credibility issues, possible 
inadmissibility issues, or possible other derogatory admission.
    At the same time, the individuals are fingerprinted, and 
those fingerprints are run against U.S. Customs and Border 
Patrol (CBP) holdings, FBI holdings, and Department of Defense 
holdings.
    Only after they clear that process and after their cases 
are carefully analyzed, do they move on. If there are concerns 
identified, then, at that point, they move into what is called 
the Controlled Application Resolution and Review Process, which 
is a joint undertaking of my Refugee Affairs Division and my 
Fraud Detection and National Security Directorate, in which 
those cases are subjected to an even more intense analysis of 
what is going on. In fact, the number of cases--going back a 
while now, hundreds of them, in fact--are on hold because of 
concerns identified during the process.
    Only after an individual or a family unit has cleared that 
entire process is the decision made, in fact, to have stamped 
approved on that file, which allows that individual then to 
make plans for both cultural orientation, medical examination, 
and then planning to move to the United States.
    I also underscore that when I talked about the biographic 
checks earlier, that is a recurrent process, meaning that even 
though we do it before the interview that system is constantly 
queried now. That is a recent improvement to the manner in 
which we do our work, which means that if new derogatory 
information arises about that individual, then we will be 
notified of that information in order to take appropriate 
action with respect to that case.
    I look forward to the questions, which I think will give me 
further opportunity to elucidate this process. Thank you, 
Chairman and Ranking Member.
    Chairman Johnson. Thank you, Mr. Rodriguez.
    I want to start out, because we have been told this in 
briefings, the fact that only 2 percent of the 1,869 Syrian 
refugees that have been allowed into the country over the last 
year were men of military age, 21 to 30. But that is a little 
more narrow than that, is it not, because I am looking at 
figures that there really were 994 men and 875 women out of 
that 1,869. So, Ms. Richard, can you tell us the difference, 
the distinction there?
    Ms. Richard. Yes. Thanks for bringing that up. There have 
been 2,000 Syrians resettled to the United States since the 
start of the crisis 4\1/2\ years ago, and 1,700 came last year. 
And of all the ones that have come, 2 percent are young, 
single, military-age males who are not with a family or do not 
have a family connection in the United States, so truly on 
their own. The number of males, the percentage of males is a 
little over half. But that includes boys to grandpas.
    Chairman Johnson. Right. OK. I just kind of want to set the 
record straight there.
    My concern is where are the vulnerabilities? Where are the 
holes in the system? And in briefings, I think what people are 
very concerned about, OK, you are checking databases, 
watchlists. My first question is, what does it take to get in a 
database or on a watchlist, and how do you avoid it? I mean, 
what people would not be on there that then you are going to 
completely rely on interviews?
    So, let us first start here. How do you get on a watchlist 
and how do you stay off it?
    Mr. Rodriguez. Some of the specifics about how that works 
are things that we would need to address in a classified 
briefing----
    Chairman Johnson. OK.
    Mr. Rodriguez [continuing]. But suffice it to say, if there 
is a heightened level of concern that somebody is a terrorist 
or otherwise an actor who would be seeking to harm the United 
States, that would be the basis of either nomination to one of 
the databases I described before, watchlisting. Again, I think 
in a classified briefing, we could probably go into detail as 
to how that happens.
    Chairman Johnson. So they would have had to do something or 
be associated with somebody that is nefarious, correct?
    Mr. Rodriguez. Those are at least two ways----
    Chairman Johnson. So, let us say they are a citizen of 
Syria or a citizen of France that really did not travel, or 
maybe a citizen of France that snuck into Syria, never had the 
passport stamped, was able to sneak back. There would be no 
reason for them to be on a watchlist or in a database, correct? 
And then during the interview process, they would really be 
able to answer all the questions and not come across as 
particularly suspicious, right?
    Mr. Rodriguez. I go back to what I said at the beginning. 
There is no question that ISIL, al-Nusra, the Syrian 
government, itself, are our enemies. There is, therefore, a 
constant process of looking for information about those 
entities, about their activities, about where they operate, 
about who they are, that, in turn, becomes--and, again, without 
describing the techniques as to how that occurs--information 
that is available to us through these various databases that I 
described. Therefore, this can become a reason either directly 
or through association, in some cases, to, at a minimum, hold a 
case and subject that case to further scrutiny.
    Chairman Johnson. But, again, if you had a clean record and 
you are from Syria or you are one of those citizens from 
Europe, you may not be in those databases and you would have to 
have a pretty good interviewer to potentially catch that.
    What is the current--and, hopefully, you can talk about 
this in open session--what is the current estimate of the 
number of foreign fighters that are European citizens or 
citizens--let us put it this way--citizens of a country that 
has the Visa Waiver Program in place with the United States? 
How many of those foreign fighters are we aware of that have 
gone to Syria, possibly come back?
    Mr. Rodriguez. I apologize, Chairman. I believe that that 
sort of analysis exists. I do not have it at my fingertips.
    Chairman Johnson. Ms. Richard, do you know?
    Ms. Richard. No, sir.
    Chairman Johnson. OK, because I think that is, I think, one 
of our greater vulnerabilities. So, I think as other people ask 
questions, we are going to see a pretty robust vetting process 
for refugees and probably a less robust process for other forms 
of visa waivers or visas coming into this country, and I think 
that is part of the vulnerabilities we need to explore.
    With that, I will turn it over to Senator Carper.
    Senator Carper. Thanks. Again, we appreciate very much your 
being here with us today.
    Just given what we have talked about here today and what we 
have learned in the last several days about the rigor of the 
refugee program, the screening process in the refugee program, 
if--these guys are not stupid that we are dealing with, the bad 
guys. I cannot imagine why they would want to spend 2 years 
going through a refugee screening process when they could try 
to get to this country, or any other country, with a tourist 
waiver, tourist visa, rather, with a student visa, come through 
the visa waiver process we have with 38 other countries.
    So, we are going to continue to focus on the refugee 
process for folks to get over here, whether it is 2,000 this 
year, 10,000 next year. It is hard to imagine, if I am trying 
to get over here to do mischief, I am going to wait 2 years to 
go through that process, knowing that at any step of the way, I 
could be bumped out and probably would be detected. OK.
    I think where we need to, as a Committee, focus our 
attention is on the Visa Waiver Program, and I might be 
mistaken. We have a lot of hearings in this Committee, as my 
colleagues know, but I believe we had one in the last year or 
so on the visa waiver situation and it was good. And we learned 
there had been--was it perfect? No, it was not. Has it been 
made better? Yes, it has. And are there things that we can do 
to make it better still? There probably are.
    And, I do not know, Mr. Rodriguez, if you could just talk 
to us about--this may be outside of your lane, the Visa Waiver 
Program, but we need to hear from somebody who can talk to us--
--
    Mr. Rodriguez. Yes----
    Senator Carper [continuing]. And give us some advice as to 
what legislatively we can do to strengthen it further.
    Mr. Rodriguez. Yes. I confess that it is outside of my 
lane, although the individual that runs that lane does not sit 
too far away from me, and that would be the Customs and 
Border----
    Senator Carper. Is there anybody here with you from DHS?
    Mr. Rodriguez. No, but we certainly could work with the 
Committee to arrange a briefing or a hearing, as the case might 
be, to discuss those issues.
    Senator Carper. All right. Good.
    You said something in your testimony, Mr. Rodriguez, about 
I think the term you used was recurring process, going over, 
monitoring and reexamining as new information comes to the 
fore, and that could be used in terms of either denying or 
revisiting someone's ability to come here, to stay here. Would 
you talk a little bit more about that.
    Mr. Rodriguez. Yes. So, I talked before about the 
interagency check, which is essentially an electronic query of 
a number of different law enforcement and intelligence 
databases. We have now upgraded our approach to those checks to 
have the system advise us if further information is entered 
into that system about an individual about who there has been 
previously a query.
    So, if we had queried during the initial phases of the--
rather, sort of the intermediate phases of the screening 
process, an individual, and if new information arises about 
that individual, then we would be notified about the existence 
of that new information, and that occurs right up until the 
very moment of arrival in the United States. That query process 
continues to occur right up until that point.
    The other thing that I might say, if I may, Senator, about 
the interview process, my training is as a State and Federal 
prosecutor. I have spent a lot of my life around law 
enforcement of all types: State, local, and Federal. And I have 
conducted and observed thousands of interviews. I have taken 
the opportunity to observe my officers in action. I was with 
them in Turkey this June. And I can tell you that the quality 
of the interviewing that they were conducting was as good as 
any I have seen in my professional career.
    Senator Carper. OK. Would you talk to us a little bit about 
whether or not we need to examine more closely--we have talked 
about the process--the refugee process of getting here and the 
visa waiver process of getting here. How about student and 
tourist visa process of getting here? I am told that 40 percent 
of the people that are here, if there are 12--we will say there 
are 12 million people here undocumented in this country. I 
think about 40 percent of them came here in a legal status, 
maybe using a tourist visa or a student visa. But, are there 
any things that we should be mindful of, thinking about the 
rigor of those processes?
    Mr. Rodriguez. Yes. I think the main thing to----
    Senator Carper. And the vetting of those people coming 
under those----
    Mr. Rodriguez [continuing]. Note about that, and I am going 
to try to say it in 5 seconds, is that those processes also 
involve both law enforcement and national security database 
checks. So, the fact that those are outside of the refugee 
process does not mean that we are not undertaking some of the 
same rigor that we apply to the refugee screening process.
    Senator Carper. All right. Thanks so much.
    Chairman Johnson. Senator Portman.
    Senator Portman. Thank you, Mr. Chairman, and thank you for 
holding another hearing on this topic. We were here last month 
talking with the Secretary of Homeland Security, your boss, and 
also talking to the FBI Director and the counterterrorism folks 
about this very topic. And, I think it is clear that we live in 
a dangerous world and it is something we have to be concerned 
about, not just in the refugee program, but all these various 
entry points.
    One, of course, is the Visa Waiver Program. We talked about 
the fact that there are 5,000 foreign fighters who come from 
these 38 countries with which we have a visa waiver 
arrangement. That is a huge risk, and I think it is appropriate 
that this Committee focus on tightening up those standards. I 
know there are a couple of legislative proposals floating out 
there now and we would love to have your input on that today.
    We also, of course, have to worry about visas. I mean, the 
9/11 terrorists came here, overstayed their visas. We did not 
know who they were, where they were. That is an immigration 
reform issue.
    Legal immigrants--we have foreign fighters ourselves, and 
we have had some that have come back to my home State of Ohio. 
One came back to Columbus, Ohio, and plotted to commit 
terrorist acts in the United States and was arrested for it. It 
is happening.
    We, of course, have the issue of illegal entry. This 
morning, we hear about the five individuals who were stopped in 
Honduras with fake Syrian passports, and then we have 
apparently a couple families on the Mexican border this 
morning. And, this is a problem and this goes to our need to 
have a secure border, not just for immigration purposes, but 
for money, guns, drugs, and certainly for terrorism.
    And then homegrown terrorists. My hometown of Cincinnati, 
we have one person currently incarcerated, under arrest, for 
wanting to come to this capital to blow us up here. And in 
Akron, this month, we had a homegrown terrorist arrested. This 
is in Ohio, the heartland.
    So, this is a very real issue, but I do not think we should 
ignore the refugee side of it, either. Let me tell you a story, 
and maybe you can tell me that this is something that could 
never happen under the current program. But there were a couple 
of brothers who were brought in as refugees from Iraq--not 
Syria, but from Iraq--and they were in the heartland, right 
across the river from where I live, in Bowling Green, Kentucky.
    Recently, the Sixth Circuit Court of Appeals affirmed their 
conviction for terrorist activities, including providing 
assistance to al-Qaeda in Iraq. They also were taped saying 
that they wanted to build a bomb in the United States to kill a 
U.S. Army captain in the United States, and they were quoted as 
saying, quote, ``many things should take place and it should be 
huge.'' These were refugees.
    And, so, this notion that, somehow, we need to worry about 
all these other issues but it is OK in the refugee program, of 
course, we need to know who is coming in, and we need to be 
sure we not only know who they are, but also what their 
intentions are.
    And with regard to these Iraqi refugees who came in, they 
had been fingerprinted at the border in Syria, because they had 
to go through Syria to come from Iraq. They had been entered 
into a biometric database maintained by U.S. intelligence. Yet, 
when they applied for refugee status and were checked by DHS, 
your department, FBI and the Department of Defense, they came 
in clean and were admitted to the United States. So, later they 
bragged about what they had done to attack and kill U.S. 
soldiers in Iraq. They were not picked up.
    My concern, which was something that came forward in our 
last hearing here on October 8, in this room, where again we 
had your boss, the FBI Director and counterterrorism officials. 
They told us, point blank, we do not have the intelligence in 
Syria to be able to do the appropriate background checks. Here 
is the quote from Director Comey, the FBI Director, in response 
to asking about our gaps in intelligence collection and the 
sharing process that posed great risk, he said, ``Senator, to 
me, there is a risk associated with bringing anybody in from 
the outside, but especially from a conflict zone like that. My 
concern there is that there are certain gaps, I do not want to 
talk about publicly, in the data that is available to us,'' end 
quote.
    You said something similar this morning. You cannot talk in 
open session about the gaps we have. But, obviously, we do not 
have intelligence on the ground there. We have just spent 50 
special forces there. That is great. They are not there to 
collect data on refugees.
    So, I do think it is a concern and I do think we have to 
tighten it up and I think if we do not, we are ignoring one of 
the--agreed, many other threats, some of which may be greater 
threats in the sense of numbers of people, but for us to stand 
here and say we are somehow against refugees because we think 
there ought to be proper checks in place, that is ridiculous. 
We are the most generous country in the world, and thank God we 
are. And I, along with my colleagues, I think, on both sides of 
the aisle, are strongly in support of the U.S. Refugee 
Resettlement Program. But let us be darned sure that we do not 
have another situation, as we had in Bowling Green, Kentucky, 
in a case where, unfortunately, because we do not have 
intelligence on the ground, we had even less information than 
we did with regard to the Iraqis.
    Your response.
    Mr. Rodriguez. Yes. Since the Bowling Green case, a lot has 
been done to upgrade the security check system. I have heard it 
certainly said by others that those individuals would have, in 
fact, been picked up under the kind of biographic screening 
that we do now.
    Nothing of what I am saying should be seen as contrary to 
what either Secretary Johnson or Director Comey said. There is, 
in fact, risk in what we do. What I am saying is that we engage 
in the sort of process with redundancies, with abundant 
resources and with highly trained officers, to keep those risks 
to an absolute, absolute minimum.
    Chairman Johnson. Thanks, Senator Portman.
    Just out of respect to all of our Members here, I will be 
using the gavel here to keep the question and answer period as 
close to 5 minutes as possible. So, with that, Senator 
McCaskill.

             OPENING STATEMENT OF SENATOR MCCASKILL

    Senator McCaskill. Thank you both for being here. I will 
not ask you to take the time to identify all the different ways 
that foreigners can come to our country, but I think it is 
obvious, and it has already been stated today and many times 
over the last few days, that these radical jihadists are all 
over the world. They are in our country. They are in many 
countries. And, if you look at the number of refugees that have 
been brought in from other countries, there are a number of 
countries on that list where we have brought in many more than 
Syria, like Somalia, Iran, and Yemen. And, we have intelligence 
gaps everywhere. There are intelligence gaps.
    So, the question I have for you is, if you were a 
terrorist--well, maybe this is not a good question because we 
do not want to tell terrorists this. Let me ask it this way. 
[Laughter.]
    Let me ask it this way. Which way, of all the ways to get 
into this country, are you subjected to the most scrutiny?
    Mr. Rodriguez. I can say with great confidence that 
applicants for refugee status, and in particular refugees from 
Syria, are subjected to the most scrutiny of any traveler, of 
any kind, for any purpose, to the United States.
    Senator McCaskill. So, my biggest concern is, listen, let 
me acknowledge, America is on edge. People I love are on edge. 
We are worried and we are angry, worried and angry. And what I 
would like us to do on a bipartisan basis is to calmly come 
together as a country, Democrats and Republicans, and figure 
out what we can do that enhances the security in all of the 
categories. But it seems to me we have gotten distracted by the 
shiny object of refugees because of this image of people 
swarming our borders without any checks, not realizing that 
this, of course, is not like Europe, where all they saw at the 
border of France is ``Welcome to France.'' That is it. I mean, 
once they got into Europe, they had free access around those 
countries.
    So, what I would like you to tell us, both of you, is if 
you were going to spend time and energy crafting better 
policies to keep America safe from those people who want to 
come here, where would you focus attention?
    Mr. Rodriguez. For me, that is an operational question as 
much as a policy question, and it is an operational question 
that we ask ourselves every single day in what we do, which is, 
to the extent that we are screening, be they refugees or the 
other example that was given was individual student visas, what 
are we doing to plug up risks that we identify in those 
processes. So, even though I have identified what I think is a 
very rigorous process, we are constantly looking for 
opportunities to upgrade that process, to improve the scope of 
information that we access, to deepen the training and 
understanding of our officers.
    One example, actually, is to the extent that we talk about 
increasing admissions, our officers learn a lot from the 
refugees that they interview.
    Senator McCaskill. Right.
    Mr. Rodriguez. That actually----
    Senator McCaskill. And all that goes into our process.
    Mr. Rodriguez. That is correct, and that deepens their 
ability to be able to screen the people that----
    Senator McCaskill. What about students?
    Mr. Rodriguez [continuing]. They encounter as part of the 
process.
    Senator McCaskill. Are we doing this for students? Are we 
checking them in all the databases?
    Mr. Rodriguez. In many cases, depending on where they come 
from and the circumstances in which they come--we are certainly 
checking in the databases. We do that for just about every 
immigration category that we operate. The configurations are 
different depending on the categories, but we basically do a 
national security check and a criminal justice check for just 
about every applicant for immigration benefit or other sort of 
immigration consideration who we encounter.
    Senator McCaskill. And what about biometrics for all of the 
38 countries that we have Visa Waiver Programs with? How many 
of them now do not have the facial recognition and the 
fingerprint recognition and the chip-embedded passports that we 
think now should be standard? How many of those countries do 
not have that as a bare minimum?
    Mr. Rodriguez. Senator, I am going to respectfully defer to 
my Customs and Border Protection colleagues. They really are 
the experts on the operation of the Visa Waiver Program.
    Senator McCaskill. Well, I would like us to get that 
information because if we are crafting legislation, I think it 
is a big mistake not to use this as a moment of leverage with 
our visa waiver partners, to insist on the same kind of 
biometric protections that we have in our passports for those 
passports, since I believe, the foreign fighters in those 
countries pose much more of a risk to us than the small number 
of refugees who have gone through a great amount of vetting.
    Chairman Johnson. Thank you, Senator McCaskill. Senator 
Ayotte.

              OPENING STATEMENT OF SENATOR AYOTTE

    Senator Ayotte. I want to thank the Chairman.
    Director Rodriguez, just to be clear, following up on 
Senator Portman's question about the current program and the 
refugee program, Director Comey, not only did he testify before 
this Committee with what he told Senator Portman, but also, I 
think, what has concerned many of us is the testimony that he 
gave before the House Committee on October 21, 2015 and in 
which he basically said that the U.S. Government may not have 
the ability to vet thoroughly all the Syrian refugees coming 
into the United States.
    He explained that if a Syrian person is not already in the 
FBI's database, that person is unknown to the agency, leaving 
an inadequate basis for the person's background to be screened 
for terrorism risk. He said, quote, ``We can only query against 
that which we have collected.'' He cautioned--he also said, 
``So, if someone has never made a ripple in the pond in Syria, 
in a way that would get their identity or interests reflected 
in our database, we can query our database until the cows come 
home, but we are not going 
to--there will be nothing because we have no record on that 
person.''
    So, I guess my question is, I understand all the multiple 
steps that you are taking, but is not one of our big gaps here 
that we do not have the kind of intelligence we had in Iraq, 
where we actually had, because we had many representatives on 
the ground, we had men and women who fought there, we had 
diplomatic representatives that we do not have in Syria, that 
this presents a different challenge to us?
    Mr. Rodriguez. There is no question that in Iraq, we had a 
unique level of intelligence saturation. To what I think was 
Senator McCaskill's point, though----
    Senator Ayotte. But I am asking this question----
    Mr. Rodriguez. No----
    Senator Ayotte. So, are there greater challenges, and how 
do we reconcile what Director Comey has said about these gaps 
with concerns that our constituents have, that I think are very 
legitimate, about this vetting process based on a gap in 
information?
    Mr. Rodriguez. No, I am trying to explain. So, this is not 
the first time, by far, that we have been vetting individuals 
coming from a country that was a zone of conflict where we were 
not participants, where we did not have the intelligence 
gathering ability that we had in Iraq. The fact is that we are 
gathering intelligence around the world----
    Senator Ayotte. OK, so just a simple question. Do you 
diminish at all the concerns raised by the FBI Director to the 
Congress?
    Mr. Rodriguez. No. I think I was very clear that what we do 
is not without risk. What I am saying is that we are using 
multiple intelligence resources----
    Senator Ayotte. I understand that. Just a simple yes or no. 
Do you disagree or do you have any quarrel with the comments 
that he has testified to in the House Committee?
    Mr. Rodriguez. I do not have quarrel with what he said. I 
think there is context that is critical.
    Senator Ayotte. OK. I appreciate it. I just wanted to 
understand.
    So, I want to understand, of all the individuals involved 
in the Paris attacks, can either of you answer the question of 
how many were on our ``no fly'' list?
    Mr. Rodriguez. I know that I am not in a position, in an 
open hearing, to discuss that information.
    Senator Ayotte. OK. And, can either of you answer the 
question of how many were on our terrorist watchlist, or is 
that something we cannot answer in an open session?
    Mr. Rodriguez. Again, in an open session, I do not believe 
I can answer.
    Senator Ayotte. So, I would agree with Senator McCaskill 
that I think there are allies that we, on this Visa Waiver 
Program, which this Committee actually has been focusing on for 
a while-- a number of hearings related, even prior to this, on 
the Visa Waiver Program--that we do need to understand what 
information and what gaps were on that, based on whether those 
individuals, who are engaged and are the perpetrators of the 
attacks in Paris, were on our list, No. 1. I think that we have 
all received some briefing on that in a classified setting. 
But, this is something we have to have an open discussion 
about, as well.
    Where are those gaps that need to be fixed, because if they 
cannot get on our no fly list and they are not on our no fly 
list, this is a real issue on the Visa Waiver Program, because 
that means, potentially, they can come here. And, so, that is 
something that needs to be addressed.
    So, I do not think that it is mutually exclusive that we 
address these gaps in the Visa Waiver Program that need to be 
addressed and gaps in refugee resettlement programs. Obviously, 
there are legitimate and important reasons for people to travel 
to the United States of America, but we need to make sure that 
we address that issue, as well.
    But, I think many of us are concerned, based on what we are 
hearing from some of our top intelligence officials and the 
Director of the FBI, that the gaps we have do not allow us to 
fully know what we need to know on some of the individuals who 
are coming, potentially, to our country.
    Finally, I just want to say that if we do not address ISIS 
with what they are doing in Syria and Iraq, then we are not 
going to be in a position--if we do not work together with our 
allies to defeat ISIS, then the refugee problem is going to 
continue because these individuals will not have a home, and I 
hope that is something that we all work ontogether on a 
bipartisan basis. Thank you.
    Chairman Johnson. Senator Tester.

              OPENING STATEMENT OF SENATOR TESTER

    Senator Tester. Thank you, Mr. Chairman. Thank you for 
holding this hearing, and thanks to both of the people who 
testified for coming today.
    If a refugee's application for admittance is denied, is 
there a tag put on that form, on that record?
    Mr. Rodriguez. In other words, if we see the individual 
again? I assume that is the essence of your question, Senator.
    Senator Tester. That is the next question, yes.
    Mr. Rodriguez. OK. I mean, we certainly make sure that we 
know who that individual is.
    Senator Tester. OK.
    Mr. Rodriguez. It is also if, critically, if future cases 
demonstrate some connection to that denied individual, that is 
something that we are able to identify.
    Senator Tester. OK.
    Mr. Rodriguez. We are always looking at networks of people, 
family networks and networks of associations as part of our 
vetting.
    Senator Tester. OK. So, is it fair to say that refugees 
that have been denied acceptance, none of them have tried to 
reapply and none of them have received? Once been denied, they 
are out?
    Mr. Rodriguez. I cannot say whether that is unheard of, 
Senator----
    Senator Tester. What would cause----
    Mr. Rodriguez [continuing]. We can certainly get you an 
answer to that question.
    Senator Tester. Can you tell me what would cause a denied 
application to become one that would be accepted at a later 
date?
    Mr. Rodriguez. I suppose if it was a situation where it 
turned out that the individual was able to effectively refute--
--
    Senator Tester. OK.
    Mr. Rodriguez [continuing]. The basis of the denial----
    Senator Tester. Got you.
    Mr. Rodriguez. That would be a pretty high bar. I should 
just underscore that.
    Senator Tester. Could you give me an idea on how many 
refugee applications are received and how many are accepted?
    Mr. Rodriguez. In any given year, we admit--this past 
year----
    Senator Tester. What I am talking about is, you applied, 
you are turned away or you are accepted. Can you give me the 
difference between applications and acceptance? I know how many 
people have come in already.
    Mr. Rodriguez. Umm----
    Senator Tester. If you cannot answer that, you can get back 
to me.
    Mr. Rodriguez. Yes. I will get you that back----
    Senator Tester. Let me ask a little bit about the process 
for screening that you went through, and I appreciate that, by 
the way. You said that the refugees were continually queried 
through databases for additional information. Is that while the 
vetting process is going on, or does that even occur after they 
are admitted into the country?
    Mr. Rodriguez. That occurs right up until the time of their 
admission into the country, from the time that the check is 
first run, during the intermediate portions of the screening, 
essentially, the State Department leg of the screening, and 
that occurs right up until the time of their admission.
    Senator Tester. OK. Without getting into the specifics, and 
we have talked about VWP, we potentially will talk about 
political refugees and the difference. We could talk about 
different ways of getting into this country. Is your Department 
putting together a list of things as an ask of Congress to give 
you additional tools to make sure that the vetting process is 
where you believe it needs to be--if any are required? Are you 
willing to give us your suggestions on what needs to be done, 
not only with refugees, but with the entire overlay, political 
refugees and others?
    Mr. Rodriguez. Sure----
    Senator Tester. Visa waivers and others?
    Mr. Rodriguez. Sure. No, we are always willing to work with 
the Congress on those issues. I think it is important to 
understand that my agency is a fee-funded agency.
    Senator Tester. Yes.
    Mr. Rodriguez. The fees paid by most of our fee payers 
subsidize the refugee. So, they do not pay an application fee, 
but that is subsidized by other fee payers, other USCIS fee 
payers.
    Senator Tester. OK.
    Mr. Rodriguez. So, it is not from tax revenue.
    Senator Tester. I have you, but that is not the question. 
The question is, if we need to tighten up VWP, for example, or 
if we need to tighten up political refugees and the regimen 
that they have to go through to get accepted into this country, 
are you guys willing to put forth those recommendations to us? 
And, I am not saying there are any needed, but it would be nice 
to deal with the folks who deal directly on where the gaps are. 
You know them better than I.
    Mr. Rodriguez. Senator, we are absolutely willing to work 
with this body at any time to refine the way we do our work. 
Absolutely.
    Senator Tester. OK. Let me see. What else is there? That is 
probably about it. I just want to say thank you for your work. 
I think that there is not anybody that serves in Congress that 
does not want to make sure this country is as secure and as 
safe as it can be. I think what happened in France rattled 
people to their soul. And, so, we need to make sure that the 
work you are doing fits the risk. Thank you.
    Senator Carper. Senator, before you yield back your time, 
let me just share something. At our briefing yesterday, and in 
some discussion at our lunch today, there was some mention of a 
program, I think it is funded within DHS, the number $45 
million per year sticks in my mind, and the money is used to 
combat radicalization in this country. Could you just take, 
like, 20 seconds and just tell us about that, because we heard 
yesterday that that is something we should do more of. It has 
worked. We should do more of that. It goes to the root causes 
that the Chairman was talking about.
    Mr. Rodriguez. Yes. Secretary Johnson has assembled at a 
high level in the Department something called the Office of 
Community Partnerships, the purpose of which is to engage in 
the activity we call countering violent extremism. And that is 
a series of engagements at a national, State, and local level, 
at a community level, with youth and with nongovernmental 
organizations, to really identify the root causes of 
radicalization and to use smart approaches to, in fact, 
interrupt the process of radicalization.
    Chairman Johnson. Senator Baldwin.

              OPENING STATEMENT OF SENATOR BALDWIN

    Senator Baldwin. Thank you, Mr. Chairman.
    Like my colleagues, I certainly am hearing from the public 
in Wisconsin with sincerely held concerns and fears about an 
attack, such as the horrific attack we saw in Paris, happening 
here in the United States. So, I was grateful to hear your 
response to Senator McCaskill's question about which of the 
methods of entry into the United States would set up or provide 
the greatest amount of scrutiny, and I think I heard you say 
fairly specifically that the refugee path, especially if you 
are a refugee from Syria, would provoke, prompt, the most 
intense scrutiny. Is that correct?
    Mr. Rodriguez. Yes, that is correct. That is absolutely 
correct. I mean, I know what we do and across all lines of 
business and that is absolutely the most scrutiny to which we 
subject----
    Senator Baldwin. So, I wanted to follow-up, because a 
number of the Governors in the United States have come forward 
to try to cut off that path in terms of announcing some sort of 
refusal to participate in a Refugee Resettlement Program that 
is a national program. Governor Walker from the State of 
Wisconsin, my State that I represent, was among those 
Governors, and I just wanted to share what he communicated in 
terms of raising concerns.
    He said that ``there are not proper security procedures in 
place to appropriately background and accurately ascertain the 
identities of those entering our country through the Syrian 
refugee program,'' end quote, and additionally that, quote, 
``this deficiency in the program poses a threat to the safety 
and security of our people,'' end quote.
    Can you respond to those concerns?
    Mr. Rodriguez. Sure. There have been refugee populations 
that, because they come from conflict zones, because they are 
running from their house, have not presented a lot of 
documentation when we have encountered them. That has not 
generally been true of the Syrian refugee population.
    I would also point out that our officers, as part of their 
rigorous training, are trained in identifying fraudulent 
documents, to the extent that that is something we are always 
looking for as a concern.
    It is also a critical part of the vetting process from end 
to end, in other words, what UNHCR does, what Assistant 
Secretary Richard's folks do and what we do, to really drill 
into the identity and associations of these individuals. So, I 
do have a high level of confidence that when we stamp a case 
``approved,'' we know whose case we approved. We know the 
identity of that individual.
    Senator Baldwin. Thank you.
    Ms. Richard, my next question has to do with the 
implications on funding that flows from the Federal Government 
in support of Refugee Resettlement Programs, generally, if a 
State were to announce that it was not going to participate in 
that program. I know that you work in partnership with the 
Department of Health and Human Services Office of Refugee 
Resettlement in all of this. But, let me just ask, do you think 
these State decisions jeopardize this funding stream and a 
series of programs that back up refugee resettlement, such as 
medical assistance, social services, and housing? And, I am 
particularly concerned about refugees who may have settled in 
our States from other places in the world aside from Syria.
    Ms. Richard. Thank you for your question, Senator. Three 
departments of the Federal Government are the ones who help run 
the process, although as you have heard, a lot of law 
enforcement and national security intelligence agencies are 
involved in the vetting process. But in terms of running the 
process, the State Department is responsible for working with 
UNHCR. UNHCR refers refugees to us. We have staff in centers 
around the world who help the refugees put their case together 
to tell their story and collect their documents. The essential 
decision over whether they are coming or not rests with DHS.
    The vetting process is complicated, as you have heard, and 
then we also are responsible for getting them to the United 
States, working with partner organizations to have them met at 
the airport, and getting them settled here in the first 3 
months of their new lives in the United States.
    At that point, the Department of Health and Human Services 
has a program to provide assistance through the State 
Governments to give additional support to refugees. They will 
have refugee-specific programs. It varies from State to State.
    So, in the past, there has been at least one Governor who 
said, ``I do not like refugees coming here. I am not going to 
accept this money.'' And a Member of Congress from that State 
told him, ``Please accept the money. I worked very hard up here 
in Washington to get assistance for our State to help with 
these kinds of tests.'' And this is a Federal program. The 
Governors do not have the ability to block the resettlement of 
refugees, but, more important than that is, this program 
depends very much on the support of the American people.
    It is run at the community level. There are a lot of 
community organizations, of volunteers, churches, faith-based 
groups and temples involved. A lot of the things that help a 
refugee family get started once they get here are furnished by 
charity. I have been to places in Miami where recently arrived 
Cuban refugees get furniture from a furniture store where the 
founder was a Cuban refugee. And, so, these contributions are a 
big part of this program. It is a public-private partnership. 
It only works if people at the community level support it.
    So, I am less concerned about the legal ramifications of 
the Governors' actions and much more concerned about the 
message it is sending to the American citizens, that we would 
at all be running a program that is dangerous. We have no 
desire to do that. And we also need public officials and 
Senators and Members of Congress to help us--the responsibility 
is mine, but I can use the help--educate people about what this 
program is and why we do it and why it is in the best interests 
of our Nation to honor this tradition of bringing refugees to 
the United States. Thank you.
    Chairman Johnson. Senator Heitkamp.

             OPENING STATEMENT OF SENATOR HEITKAMP

    Senator Heitkamp. Thank you, Mr. Chairman.
    A couple of things. First off, just because I know you guys 
have deferred a number of times on the Visa Waiver Program, I 
am not going to ask you specifics. But I do want for the record 
to acknowledge that 20 million people last year in 38 
countries--and I am not saying they all traveled to the United 
States--used the Visa Waiver Program. And we know very many of 
those 38 countries do not have the same level of scrutiny, do 
not have the same level of biometrics, not even looking at 
eVerified passports, that we have allowed in the interest of 
commerce and certainly with allied countries, maybe not being 
as enforcement-minded as what we are. So, I think that this is 
a huge part of what we need to be concerned about.
    But, we are here talking about the refugee program, and so 
I am going to just ask a simple question. Do you think it is 
legitimate for the American public to today ask you to provide 
answers to their questions about this program, but also for you 
to take a look at this program and analyze whether, in fact, 
there are any gaps, things that we could be doing better, 
choices that we could be making?
    Let us say, Mr. Rodriguez, for example, we have someone 
that we know nothing about, compelling story, but we know 
nothing about him. Another compelling story over here, we know 
a lot about that person. Given the competition for resettlement 
in this country, do you not think it makes sense for us to 
prioritize those folks that have compelling stories but that we 
know a lot about?
    Mr. Rodriguez. I am accountable to the American people, 
first and foremost. So, whatever questions they have are 
questions that I am fully prepared, at all times, to answer, 
and I think their questions are about how we conduct this 
process and how we prioritize within this process.
    The basic design of the refugee referral process is to 
prioritize individuals in the most need. And, at that point, it 
starts what is a very rigorous process of screening and a lot 
of information is gathered from everybody that we encounter. 
And if we cannot get that information, we do not clear them. We 
do not approve their cases and they either go on hold or they 
are outright denied.
    Senator Heitkamp. And I think that is something that has 
been missed in this discussion today, because a lot of people 
are saying ``you know nothing about them,'' as the FBI Director 
has said. And what you are saying now is if you cannot really 
find out enough about them, if there is not any third-party 
verifiable information, that person may not, in fact probably 
will not, make it into this country.
    Mr. Rodriguez. Well, or----
    Senator Heitkamp. Is that what you are saying?
    Mr. Rodriguez. Not entirely. In other words, the individual 
has to give us enough information that matches other 
information that we know about what is going on----
    Senator Heitkamp. Would that not be third-party 
verifiable----
    Mr. Rodriguez. I guess you are right, Senator. That is 
third-party information.
    Senator Heitkamp. I think it is really--that is an 
important question, about how you prioritize, because no one 
here is suggesting that there is not a need or there are not 
compelling stories. But there are a lot of compelling stories, 
and maybe we prioritize those where we actually have a higher 
level of assurance.
    I do not have a lot of time and I want to get to this issue 
of the Northern border, because, obviously, we have a fairly 
open border with Canada. I can attest to that, and I think the 
Ranking Member, who has flown over the Canadian border, can 
also attest to that. And I know the Chairman mentioned the 
Northern border during his opening statement. Canada's goals--
and Canada's goals regarding Syrian refugees.
    I think border security remains a critical priority for 
this country. I think we also have to include the Northern 
border, which I have been beating the drum for on this 
Committee since I have been on this Committee. So, we have to 
make smart investments on the Northern border.
    One of the issues or questions that I have regarding the 
refugee program, especially as it relates to Canada, are there 
any issues with how the Canadians vet their refugees, any 
suggestions that you have made to expand their vetting process 
or improve their vetting process, and can you speak to what 
would occur if someone was admitted into Canada as a refugee 
and that person later tried to legally cross the border to the 
United States. Would that person, even though they may not have 
passed the rigor in our country, be allowed entry through 
Canada?
    Mr. Rodriguez. And I will ask Assistant Secretary Richard 
to add what I miss. We are in constant consultation, in 
particular with the other English-speaking countries, on how we 
conduct our refugee screening process. The Canadians have been 
in this business for a long time. They do conduct at least sort 
of--the basic outline of their system, which is what I am 
familiar with, is also quite rigorous. But we are in a constant 
state of dialogue with them to make sure that we are learning 
from one another.
    Senator Heitkamp. Is the Canadian system as rigorous as 
ours?
    Mr. Rodriguez. I cannot say. It appears to me to be, again, 
from where I have been watching-----
    Senator Heitkamp. That is something that you can get back 
to me on----
    Mr. Rodriguez. Certainly.
    Senator Heitkamp [continuing]. And I have used up my time 
and the Chairman has offered to gavel us down if we go too far 
over. So, this is a dialogue that I think we need to continue.
    Ms. Richard. Senator, I am meeting with a Canadian official 
tomorrow, so if you give me some questions, I will get answers 
for you.
    Chairman Johnson. I like fear being a motivating factor. I 
appreciate the discipline. Senator Peters.

              OPENING STATEMENT OF SENATOR PETERS

    Senator Peters. Thank you, Mr. Chairman, and thank you to 
our panelists for your testimony today.
    This has been an interesting hearing, one that I am sure we 
are going to be continuing to discuss for some time. But it is 
of particular importance to me and the folks in the State of 
Michigan. As I think both of you are aware, we have one of the 
largest Middle Eastern populations, outside of the Middle East, 
in primarily the Detroit metropolitan area. We are the home to 
many refugees from around the world, but particularly from the 
Middle East, who come to the Detroit area.
    I have had an opportunity to work with refugee resettlement 
groups, with the religious community, and got to get to know 
many refugees who have come to this country, who contribute to 
the country. They are, for the most part--well, I should not 
say the most part. The refugees that I talk to are patriots. 
They are so excited to be in the United States because they are 
away from a very hazardous situation where their life was in 
jeopardy and this country opened up their borders and opened up 
our hearts to bring them here. They are store owners. They are 
entrepreneurs. They are physicians. They are engineers, 
contributing folks to our country. And, basically, this is what 
this country has been about since its founding, that we are 
about folks that come from around the world who want to pursue 
the American dream and be patriots.
    But, I think it is also important for us, as we know that, 
I think the context as we are discussing this is also that we 
are dealing with a humanitarian crisis of proportions I do not 
believe we have seen since World War II. We have literally 
millions of people who have been displaced from Syria, and they 
are displaced because thousands and thousands of Syrians were 
murdered and they left because they fear for their safety, for 
their families and their loved ones.
    I was in, just about 2 months ago, in a Syrian refugee camp 
in Jordan. I had the chance to visit Zaatari, the largest 
refugee camp there. At the time I was there, there were about 
85,000 individuals crammed in a camp in the desert not far from 
the Syrian border, in not the best of conditions to live in. 
They were receiving food allowance that was equal to 50 cents a 
day, is what they were living on. You cannot buy a whole lot of 
food for 50 cents a day. You have one propane bottle for your 
family to cook from. You cannot do a whole lot of cooking.
    But what was certainly most impactful to me was the 
conversations that I had with those refugees who just had a 
sense of hopelessness, that they had been there for a long 
time. You usually think you go to a refugee camp, you are there 
for 6 months, and you are back in your country. That is not the 
case. These folks had been there for 4 years, a lot that I 
talked to, with no idea what the future held for them. And 
their children were there and had to work and had difficulties 
surviving, not getting an education.
    I asked them, I said, where do you want to go? I mean, 
obviously, you are in this camp. You do not know what your 
future is. Where do you want to go, to the United States? Do 
you want to go to Europe? And every one of the refugees that I 
had a chance to talk to, they had the same answer. They said, 
we just want to go home. We just want to go home. We do not 
want to go to a foreign country. We do not want to have another 
language. We do not want to do that. We just want to go home. I 
think everybody here, certainly everybody in this room today, 
if we were in that situation, we would just want to go home.
    So, obviously, the most important thing is we have to 
stabilize the region. We have to deal with ISIS. We have to 
have a credible government there. We have to have a strategy to 
make sure that folks can go back and be comfortable. But we 
also know in the meantime that that is going to take some time. 
It is not going to happen overnight.
    And in the meantime, you have folks, not just in Zaatari, 
where I visited, but the millions of other folks who were not 
in camps and are in Jordan. Jordan has taken on an incredible 
responsibility, opening up and saying, we are going to help 
these folks who are displaced, these people who are hurting, 
these people who are running away from the bad guys. These are 
folks who are running away from war. They are running away from 
violence and trying to find a place for peace where they can 
raise their children.
    Now, the United Nations was at that camp. I know they were 
looking at folks to prioritize. I want to get a sense of how 
they get screened. You talked about the prioritization that the 
U.N. has as to how they determine which families should be in 
this program. And I think another important number, if both of 
you could respond to it, is that my understanding is about 
20,000 folks have been referred to the United States from the 
United Nations as potential refugees, roughly. Out of that 
number, I understand we have looked at about 7,000--you can 
correct me on these numbers, but around 7,000--and that we 
admitted less than 2,000. So, already, the U.N. has done some 
screening, prioritizing, probably those who are in the most 
need, who have been there a long time, but I would like to know 
what that is, how we can continue to screen down.
    So, I think those numbers alone show how robust the system 
is, and I think we heard some folks discuss here, if you are a 
terrorist wanting to get into this country, you are going to 
take the path of least resistance. I look at this process--this 
is far from the path of least resistance. You have to be in a 
refugee camp for a while before you are even looked at by the 
U.N. I mean, this is a multi-year process that folks go 
through, and from seeing it firsthand, it is horrible 
conditions that oftentimes these folks find themselves in, and 
there is not anybody in this room that would want to be in that 
position, and they would want someone to say, we have some 
compassion. We know you can be a valuable contribution when you 
come here, as well.
    If you could talk about that, please, the priorities and 
why we have moved those numbers down so much.
    Ms. Richard. So, UNHCR works with us all around the world 
and refers refugees to us, and they know that we would like to 
take the people who are the most vulnerable and could most 
benefit from the safety and the economic prosperity that 
America offers. And, so, they send us some of the most 
vulnerable people.
    And, my experience has been like yours, Senator, that most 
of the refugees you meet want to go home again, and so the 
resettlement sort of tears families apart in some ways. But, 
the people who we offer resettlement to, then, are widows with 
children, sometimes of an older generation, as well, people who 
have been victims of torture, trauma, people who have seen 
terrible things happen in front of them for whom there really 
is no going home ever again. We also give a home to people who 
are persecuted religious minorities, people who are lesbian, 
gay, bisexual, and transgender (LGBT), and we also--anyone 
who--perhaps people who feel that there would be a death threat 
on them if they went home again.
    Chairman Johnson. Thank you, Senator Peters.
    Just a couple quick questions and then I will give you each 
a chance to kind of wrap up if you have some closing comments.
    Mr. Rodriguez, we are going from 70,000 to 85,000 refugees 
total. That is a 21 percent increase in fiscal year (FY) 2016. 
A goal of going from 70,000 to 100,000, that is a 43 percent 
increase in 2017. Do you have the resources to take on that 
large of an increase?
    Mr. Rodriguez. We do. It requires us to look for 
efficiencies in our process. I have often said that when 
organizations are challenged in this way, it actually becomes 
an opportunity to improve themselves. That is how we are 
treating this challenge. But, it does require us to move some 
resources around. It requires us to improve our processes where 
we can. Keep in mind, we are a $3 billion a year organization, 
so the challenge is an operational one more than a financial 
one. But, we are rising to that challenge.
    Chairman Johnson. How many Syrians are currently in the 
hopper that are being reviewed?
    Mr. Rodriguez. Currently in review--I thought I had this 
information--you know what? I will need to get back to you----
    Chairman Johnson. OK, that is fine.
    Mr. Rodriguez [continuing]. With that information.
    Chairman Johnson. My final comment, the House just passed 
the American SAFE Act of 2015. I have introduced the Senate 
companion bill. It basically says that no refugee may be 
admitted until the Director of the FBI certifies to the 
Secretary of Homeland Security and the Director of National 
Intelligence that each refugee has, quote, ``received a 
background investigation that is sufficient to determine 
whether the refugee is a threat to the security of the United 
States.'' Then the refugees may only be admitted to the United 
States after the Secretary of the Department of Homeland 
Security and the Director of the FBI and the Director of 
National Intelligence certifies to Congress that the refugee is 
not a threat to the security of the United States.
    Now, that passed on a pretty strong bipartisan basis, 289 
to 137. That seems like a pretty reasonable way to assure that 
these checks, that this robust process that you have been 
describing, 
is carried out. Under Sarbanes-Oxley, Chief Executive Officers 
(CEOs) have to certify that their financial statements are 
accurate. Do you think that is a pretty reasonable response?
    Mr. Rodriguez. I think you saw that the White House took a 
position indicating that its view was that it did not add that 
much. I will say that the process that we engage in is 
essentially equivalent to the process contemplated in that 
bill. People are subjected to the most intense scrutiny. There 
is intense supervisory review. Cases that present concerns are 
actually elevated. Our Fraud and Detection and National 
Security Directorate is brought in to participate in the 
analysis of those cases.
    So, it would be my view, along the lines of what the 
President has said, that, in fact, it would not necessarily add 
much beyond the process that we are already----
    Chairman Johnson. As you are seeing by the very legitimate 
questions of the panel, the concerns of our constituents, I 
would think this would just be one additional level of control 
to provide that kind of comfort to make sure that these--this 
redundant system would actually work.
    But, with that, Ms. Richard, do you have any closing 
comments?
    Ms. Richard. Yes, sir. Thank you. I want to assure Senator 
McCaskill that another way for us to help make America safer is 
to work with the Europeans to make their own borders safer, and 
that is something that is an active discussion right now 
overseas.
    Senator Peters asked about the 23,000 who had been referred 
to us, and we have brought 2,000 to the United States, but we 
continue to review cases and we will get new referrals and it 
is really more of a pipeline that people are flowing through.
    Senator Tester asked how many have been denied, and 
worldwide--and I am sorry I did not tell him this when he was 
here--under our current screening, worldwide, it is about 80 
percent are approved, 20 percent, so one in five, are denied. 
And, so, I do not have specifics by nationalities.
    The issue about the FBI having no holdings, it is normal 
for the U.S. Government to have very little information about 
most refugees at the beginning of the resettlement process. 
Refugees are, after all, innocent civilians who have fled war 
zones. Iraq and Afghanistan are the exceptions. We have a lot 
of information about people who worked alongside or with the 
military or nearby. And the people who, therefore, are referred 
to the program, we work with them so that they tell their 
stories and put together a case file and fill in the gaps that 
I know are a concern right now to everyone, based on the fact 
that the FBI does not have the whole picture on hand for 
Syrians. So, I do not think that has to stop the program. I 
think that we can work with the NCTC and with other 
intelligence agencies to help fill in those gaps, working with 
other agencies.
    I want to reassure this Committee that we work very closely 
with DHS. This is my fifth time on the Hill in the last 3 days, 
and that is partly why I was so glad you gave Leon all the 
tough questions---- [Laughter.]
    But we are very happy to continue to--we work together on a 
daily basis and we are happy to continue to respond to you.
    One question was, should we be looking closer at our 
program. The White House has already asked us to really go 
through the entire process carefully to look for efficiencies 
without cutting corners on security. Is it really the best 
process that we can possibly have? We are convinced that it is 
a very secure process, but everyone has noticed that it is 
lengthy. So, we are willing to do that. That is part of our 
jobs.
    Thank you very much.
    Chairman Johnson. Mr. Rodriguez.
    Mr. Rodriguez. Chairman, Ranking Member, Senators, I want 
to thank you, first and foremost, for leading what I think has 
been an incredible, from my perspective, an incredibly 
thoughtful and productive hearing. I think the questions that 
you have asked of us are questions that we needed to be asked, 
and I hope our answers offered some clarity.
    I think one of the things that has become very clear to me 
over the last 2 weeks is that we have a burden with the 
American people in really explaining to them how this process 
works, what the safeguards are in that process, and this has 
been a great opportunity, the way this hearing has been led, to 
accomplish that.
    Senator Heitkamp asked me a question that I fear I did not 
actually answer, which is are you looking for ways to make your 
process better, and the answer is absolutely yes. It is 
something that I and my staff--some of my leadership is here 
with me today--we do it every day, because we realize what this 
means to the American people. We realize what this means to the 
individuals often in great distress who are asking us to admit 
them to the United States. And, so, to that extent, we always 
are looking to improve and we always are willing to engage with 
this Committee to talk about how we can improve that process 
further.
    So, thank you again for your invitation up here today.
    Chairman Johnson. Again, we want to thank you both for your 
service, for taking the time to testify. We really want to 
thank the administration for making you available. I know this 
was very short notice, but I think we all agree, this was very 
important and useful information for the American people to 
hear, so thank you very much.
    With that, you are dismissed and we will call up the next 
panel.
    [Pause.]
    I am just going to make you all stand up again, so why do 
we not all stand up. Raise your right hand.
    Do you swear the testimony you will give before this 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you, God?
    Mr. Bergen. I do.
    Mr. Jenkins. I do.
    Mr. Gartenstein-Ross. I do.
    Mr. Schwartz. I do.
    Ms. Limon. I do.
    Chairman Johnson. Thank you. Please be seated. I like to be 
as efficient as possible.
    Again, I appreciate you all for taking the time. Our first 
witness of the second panel is Mr. Peter Bergen. Mr. Bergen is 
the Vice President at New America in Washington, DC, where he 
is also Director of Studies and of several programs. Mr. Bergen 
is also CNN's National Security Analyst and a National Security 
Fellow at Fordham University. He is currently writing a book 
about homegrown terrorism, which HBO is basing a forthcoming 
film on. Mr. Bergen.

   TESTIMONY OF PETER BERGEN,\1\ DIRECTOR, NATIONAL SECURITY 
            STUDIES PROGRAM, NEW AMERICAN FOUNDATION

    Mr. Bergen. Thank you Senator Johnson and Senator Carper 
and distinguished Senators on the Committee for the invitation 
to speak today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Bergen appears in the Appendix on 
page 73.
---------------------------------------------------------------------------
    So, my brief was to answer what are the homeland security 
lessons of the ISIS attacks in Paris and Sinai, and I think 
there are several. We have already addressed at length today 
the question of the refugees, but the real issue, I think, is 
not the refugees. It is the fact that there were so many 
Belgian and French citizens in the plot who might qualify for 
the Visa Waiver Program. It was not clear from the answers of 
the witnesses how many of these people were on watchlists, but 
let us assume that some of them were not, and even if some of 
them were, it certainly shows that with 1,800 French citizens 
having gone to Syria and 700 Brits and 700 Germans and you name 
your country in Europe, you have had a substantial number.
    So, the Visa Waiver Program, I think, is more of an issue 
than the Refugee Resettlement Program, which seems to be 
incredibly robust. In fact, it seems like the last thing you 
would do would be to apply as a refugee because it would be so 
lengthy and so onerous. It would be much easier to come on a 
student visa or through the Visa Waiver Program.
    And, I think another issue that we learned from--sort of 
changing subjects slightly--but the bombs in the Paris attacks 
were made from triacetone triperoxide (TATP), which were used 
in the 7/7 attacks, they were used in the planes plot of 2006, 
which actually did not work. They were used in the Najibullah 
Zazi plot to bomb the Manhattan subway around the eighth 
anniversary of 9/11. And, I think that is a reminder to us that 
hydrogen peroxide bombs, which are easily, relatively easy to 
access, are what the jihadi terrorist groups want to use in the 
future because hydrogen peroxide is obviously easy to acquire 
and does not flag in the same way as acquiringd ammonium 
nitrate or other kinds of issues. So, bulk purchases of 
hydrogen peroxide, as Najibullah Zazi did in Denver, Colorado, 
during his plan to attack in Manhattan, is something that 
certainly law enforcement around the country should be flagging 
for suspicious activity reports.
    Another, I think, lesson of the Sinai attack is the 
question of airport workers. We have seen that five American 
citizens since 9/11 involved in jihadi terrorist crimes had 
jobs at American airports, three of them at Minneapolis-Saint 
Paul International Airport (MSP), two members of Shabaab, one 
member of ISIS, one of them at John F. Kennedy International 
Airport (JFK), who was a baggage handler there before 9/11 but 
used that in a plot luckily that was deferred--that did not 
work out--and also one at Los Angeles International Airport 
(LAX), who was part of the cell that was planning to attack 
synagogues, LAX, and U.S. military recruiting facilities in 
California 4 years after 9/11.
    And then extend that problem to somewhere like Heathrow 
Airport, where a Heathrow Airport employee gave information 
about security to a self-described member of al-Qaeda. Luckily, 
she was arrested and he was arrested. An employee of British 
Airways was in touch with Anwar al-Awlaki, the leader of al-
Qaeda in Yemen, about a plan to put a plane--a bomb on a plane, 
a British Airways plane, coming to the United States. And, so, 
this--I think Sharm el-Sheikh shows a huge vulnerability.
    We have 200 airports around the world. Many of them are not 
in countries with necessarily particularly strong security 
services. And if you want to kill a lot of people, do not send 
a group of people to Paris with AK-47s. Put a bomb on a plane. 
After all, if you look at Sinai, 224 dead versus 129 dead. So, 
this question of airport security, I think, is an important 
one.
    And then in the brief time I have left, New America, where 
I work, we have done a survey of 474 named foreign fighters 
going to ISIS, and here are the headlines about what we found. 
We found that one out of seven were women. Now, that is an 
astonishing finding because, in previous jihads, militants 
attracted to these jihads--by definition, these are very 
misogynistic groups--did not attract women. In Paris, of 
course, we had a woman blow herself up just 24 hours ago in a 
raid in St. Denis.
    We found the average age was very young, the average age 
was 24. We found a lot of teenagers. For instance, we found an 
astonishing 80 named teenagers from the West who had gone, 
including, of course, from the United States, from places like 
Colorado and Chicago. Many of them have familial ties to 
jihadism, brothers, sisters who are also fighting in the jihad, 
or people who get married in Syria, or people who had been 
participating in previous terrorist plots, and a good example 
is what we just saw in Paris, where two brothers were involved 
and the leader of the plot brought his 13-year-old brother to 
Syria to basically fight there.
    The American profile of these foreign fighters is very 
similar to the overall Western profile--young, one in six are 
women, and a key point here is that, for the American recruits, 
nine out of ten were very active in online jihadi circles, and 
that does not mean just sending e-mails. That means posting 
repeatedly on jihadi websites.
    A final point. The war in Syria and Iraq, of course, very 
deadly. Half of these foreign fighters, the male ones, are 
dead, and 6 percent of the females, even though they are not on 
the front lines.
    Chairman Johnson. Thank you, Mr. Bergen.
    Our next witness is Brian Michael Jenkins. Mr. Jenkins 
serves as the Senior Advisor to the President of the RAND 
Corporation. He is also Director at Mineta Transportation 
Institute's National Transportation Security Center. Mr. 
Jenkins is a decorated veteran, served as a member of the White 
House Commission on Aviation Safety and Security for President 
Clinton, as well as an advisor to the National Commission on 
Terrorism. Mr. Jenkins.

 TESTIMONY OF BRIAN MICHAEL JENKINS,\1\ SENIOR ADVISOR TO THE 
                  PRESIDENT, RAND CORPORATION

    Mr. Jenkins. Chairman Johnson, Ranking Member Carper, and 
Members of the Committee, thank you very much for inviting me 
to address this urgent issue.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Jenkins appears in the Appendix 
on page 90.
---------------------------------------------------------------------------
    I would like to be able to report that in response to the 
terrorist attacks in Paris, all of the perpetrators have been 
identified and apprehended. They will be executed promptly. 
That air strikes have smashed the Islamic State, and that an 
event such as this will never happen again. However, the 
reality is that this conflict is likely to go on. There are no 
quick or easy solutions. And terrorists certainly will attempt 
further attacks.
    Let me give you some observations from the written 
testimony I have presented, first with regard to the conflict, 
itself. The fighting in Syria and Iraq will continue. Right 
now, the situation is at a military stalemate. Syria and Iraq 
are now effectively partitioned. I think these partitions will 
persist. Sectarian and ethnic divisions now drive the 
conflicts. That is going to make them hard to settle. The world 
will be dealing with the fallout of this conflict for years to 
come.
    ISIL's ideology continues to exert a powerful pull, despite 
the bombing, the coalition bombing. The number of individuals 
joining or planning to join ISIL has not diminished. ISIL right 
now is calling on more to come.
    The uniquely destructive nature of this conflict has 
produced four million refugees, caused four million people to 
flee from Syria and Iraq. Another 12 million are internally 
displaced. These are the new Palestinians. Neighboring 
countries cannot absorb them. They will be a continuing source 
of instability. We will be dealing with this issue for decades.
    Hundreds of thousands of these refugees have headed to 
Europe, raising fears that terrorists can hide among them. Some 
may have done so, which brings me to the events in Paris.
    The attack in Paris offers some important takeaways. It 
underscores the importance of intelligence. Now, just how this 
group managed to get past French intelligence, we are still not 
sure. But the French services are simply being overwhelmed by 
volume. The numbers that Peter mentioned of those who have gone 
from France, the number that are suspected of planning to go, 
the number that is in France suspected of planning to carry out 
homegrown terrorist attacks, that has simply overwhelmed the 
authorities. It is thousands.
    The availability of terrorist recruits in France and 
Belgium 
and elsewhere in Europe reflects some societal problems of 
marginalized and alienated communities, where extremist 
ideologies can easily take root. Now, that is going to take a 
long time to fix.
    The Paris attack has increased pressure on the United 
States to step up the fight against ISIL. My own view is that 
certainly we can do more militarily, but we must keep cool and 
stay smart here. We should not be provoked into measures that, 
in the long run, and this has the potential to be a very long 
run, could prove to be unsustainable or counterproductive.
    Now, paradoxically, military success against ISIL in Syria 
may heighten the threat of terrorism beyond. That is, it will 
scatter the foreign fighters. It will validate ISIL's 
propaganda that this is the final showdown between the 
believers and the unbelievers, and we could see a surge of 
terrorism worldwide even as we achieve some measure of success 
of ISIL in Syria.
    Further terrorist plots must be presumed. We must prepare 
for an array of scenarios, including armed assaults at multiple 
locations, like the one we saw in Paris, although we are more 
likely to see low-level attempts that still may be lethal.
    With regard to refugees and immigrants, immigrants since 
the 19th century have brought their quarrels with them. The 
phenomenon is not new, but these are extraordinary 
circumstances. These are refugees from an active war zone where 
fighting continues, where loyalties are fluid, where our foes 
continue to exhort followers to carry out terrorist attacks 
here. This adds a layer of risk.
    However, on the good news, the United States is not Europe. 
The numbers here are much smaller. The American audience for 
ISIL propaganda remains unreceptive. They are simply not 
selling a lot of cars here. And the new laws and structures 
which Congress has put in place to prevent terrorist attacks 
appear to be working. Moreover, we are not dealing with 
hundreds of thousands of refugees landing on our shores, but 
much smaller numbers, and we have more opportunities to vet 
them and select them.
    An important point here. We are not just trying to filter 
out bad guys. Efforts to radicalize and recruit continue after 
arrival, and so this is not a one-time sign-off that gets us 
through. But America, historically, has been successful in 
assimilating immigrants.
    And, finally, our domestic intelligence efforts have 
achieved a remarkable level of success. We are batting about 
900.
    Chairman Johnson. Thank you, Mr. Jenkins.
    Our next witness is Daveed Gartenstein-Ross. Mr. 
Gartenstein-Ross is a Senior Fellow at the Foundation for 
Defense of Democracies, an Adjunct Assistant Professor at 
Georgetown, and a lecturer at the Catholic University of 
America. His body of work concentrates on al-Qaeda, the Islamic 
State, and other jihadist organizations and transnational 
ambitions. Mr. Gartenstein-Ross.

    TESTIMONY OF DAVEED GARTENSTEIN-ROSS,\1\ SENIOR FELLOW, 
             FOUNDATION FOR DEFENSE OF DEMOCRACIES

    Mr. Gartenstein-Ross. Chairman Johnson, Ranking Member 
Carper, and Senators, it is an honor to be here to testify 
before you today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Gartenstein-Ross appears in the 
Appendix on page 101.
---------------------------------------------------------------------------
    I thought the first panel was quite strong and it was 
gratifying to see that it echoed my own conclusions in my 
written testimony. I would like to go over a couple of points 
and then look at broader issues.
    The first and most important point is that I concluded, as 
did the previous panel, that the risk of refugee resettlement, 
in terms of moving operatives into the United States, is low 
because it is such an inefficient way to place operatives. Not 
only do the operatives have to wait 18 to 24 months, but they 
have to be selected. We are selecting about 10,000 out of over 
2.1 million refugees in recognized UNHCR camps. That is a very 
small figure. They have no control over whether an operative 
would be selected, and given the way that we privilege the most 
vulnerable populations, it is highly unlikely that they would 
be.
    That being said, I think it is also significant that the 
previous panel acknowledged the intelligence gaps, which I 
think we need to be forthright about. The panel characterized, 
I think accurately, the situation as one in which the risk we 
face is low, but it is not a no-risk proposition. There is some 
risk. But the selection process significantly reduces the risk, 
as well as increases the inefficiency of moving operatives in.
    That being said, I think that the selection process is much 
more of a barrier than the screening process. It is a multi-
layered screening process, but as FBI Director Comey 
acknowledged and as NCTC Director Rasmussen talked about, we do 
not have good visibility, and that means, inherently, there are 
limitations on our intelligence.
    Indeed, recent events in Paris dramatically underscore the 
limitations of this intelligence. Not only did you have at 
least two large cells that were interlocking, but it is 
important to look at the travels of Abdelhamid Abaaoud, who was 
the mastermind of this attack. He was able to move from Europe, 
after a plot he was involved in in Belgium was interrupted on 
January 15 of this year, move back into Syria, then move back 
into Europe to personally direct the plot in France. That is 
significant. That means while he was a wanted man, he was able 
to move past European authorities into Syria, then past 
European authorities again as he moved back in. That indicates 
a much more significant intelligence gap than I think anybody 
would have anticipated prior to this plot.
    The third thing I will say is that I think it was very 
important to highlight the fact that, when you are looking at 
vulnerabilities that the United States has to terrorist entry, 
that things like VWP are just more important than refugee 
resettlement programs. The reason why we are talking about 
refugee resettlement programs so much is because of the 
dramatic pictures of large numbers of refugees and migrants 
moving into Europe.
    But, as we all know, the situation that we face is very 
different in the United States. Rather than a refugee 
population which is crossing into the U.S.'s borders, these are 
refugees that are being selected out of camps. It is just a 
fundamentally different situation and I think it makes sense 
for this legislative body to think about those means of entry 
that are of highest risk, and definitively, refugee 
resettlement programs are not.
    The fourth point is that I do think we should think about 
the Islamic State's use of refugees, not so much in the United 
States as in Europe, because this is a problem that will arise. 
The Islamic State sees the refugees who are fleeing its self-
proclaimed caliphate, and also fleeing Syria, as a major public 
relations problem. Between September 16 and 19, they released a 
dozen videos about the refugee situation. It seems that either 
one of the attackers used the refugee route or else planted a 
refugee's passport, or a Syrian passport, following the attack. 
We do not know which one yet, and there is evidence that points 
in both directions.
    But, either way, one thing they will absolutely, in my 
view, try to do is make it--is either infiltrate an operative 
that way into Europe or else make it seem like that has 
happened in order to provoke a backlash against refugees. They 
have talked about their desire to destroy the gray zone between 
the European population and the Islamic State, so that Muslims 
have nowhere to go. That is something that is worth thinking 
about, not so much for our own resettlement program, so much as 
that is an issue that will come up, and if such a backlash 
occurs, if such an attack occurs, we need to have thought about 
that, I believe, so that we can fashion appropriate policies.
    The final thing, or the final policy point I want to make, 
is that we also, as several Senators said, should consider our 
own policies toward Syria in order to reduce the 
destabilization.
    The final point I make in my written testimony pertains to 
our Central Intelligence Agency (CIA) program for sponsoring 
rebels. I think it deserves much more scrutiny because I think 
there are some very deep problems. I do not want to divert this 
hearing, but I think that is not separable from this overall 
issue.
    The final thing, taking off my hat as an expert witness and 
just talking as an American, I want to thank you for this 
hearing because I think that it was very sober at a time when 
we have had a political discussion which is extraordinarily 
hyperbolic. Senator McCaskill said we should come together as 
Americans, and I think that is very important. I think it is 
worth acknowledging that on both sides of this debate, people 
have very legitimate concerns. On the one hand, some people are 
concerned about security. Are they safe? And on the other hand, 
people are concerned that we, as Americans, are compassionate 
people. We want to welcome refugees. And I think both sides 
should recognize that there are legitimate concerns and be able 
to talk about this and advance ourselves, as opposed to having 
partisan finger pointing and zingers.
    So, thank you, as an American, for holding a hearing that 
was very reasonable and very measured.
    Chairman Johnson. Thank you.
    Our next witness is Eric Schwartz. Mr. Schwartz is the Dean 
of Humphrey School of Public Affairs. Mr. Schwartz previously 
served as the U.S. Assistant Secretary of State for Population, 
Refugees, and Migration and as the second highest ranking 
official in the office of the United Nations High Commissioner 
for Human Rights. Mr. Schwartz.

TESTIMONY OF THE HONORABLE ERIC P. SCHWARTZ,\1\ DEAN, HUMPHREY 
 SCHOOL OF PUBLIC AFFAIRS, UNIVERSITY OF MINNESOTA AND FORMER 
ASSISTANT SECRETARY FOR POPULATION, REFUGEES, AND MIGRATION AT 
            THE U.S. DEPARTMENT OF STATE (2009-2011)

    Mr. Schwartz. Thank you, Mr. Chairman. The Committee has 
asked that witnesses discuss any vulnerabilities in the program 
for resettlement of Syrians, and this is a very important 
issue. But it is really only relevant, first, if we believe we 
have a national interest in resettling Syrians, and second, if 
we are confident that we are asking the correct security-
related questions. So, I will talk about our national 
interests, in fact, our national security interests, in this 
program first.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Schwartz appears in the Appendix 
on page 110.
---------------------------------------------------------------------------
    Nobody disputes the critical national security importance 
of issues surrounding the Syria conflict--stemming the 
proliferation of weapons of mass destruction, supporting our 
friends and allies, sustaining economic relationships, 
defeating ISIS and others seeking to export campaigns of 
terror, and providing assistance to desperate people in need--
all objectives that demand U.S. leadership in highly uncertain 
times, when more than at any time in recent memory, we need the 
support of our friends and our allies.
    So, how does refugee resettlement of Syrians address these 
concerns, and more particularly, how might obstacles to the 
continuation of this program threaten our national interests?
    First, the program communicates a commitment to burden 
sharing to governments neighboring Syria. If we are asking 
Turkey, Jordan, and Lebanon to continue to host some four 
million refugees, and if we are expecting their support for our 
efforts in the region, it is important that we sustain our 
resettlement efforts and it is counterproductive for us to send 
those governments a negative signal by shutting off 
resettlement programs for Syrians, given all that those 
governments are doing.
    Second, if we are urging our European allies to implement 
humane policies on protection for hundreds of thousands of 
Syrians, here again, our commitment to resettlement is critical 
and a failure to offer modest resettlement will be perceived as 
hypocrisy and diminish our capacity to lead on issues of common 
concern.
    Third, the battle against ISIS is also a battle of ideas, 
in which ISIS rejects any notion of the compatibility of Islam 
with other traditions. Our Refugee Resettlement Program rebukes 
that preposterous notion. But imposing significant obstacles to 
particular groups does risk playing into the very narrative 
that we seek to combat worldwide, and it is worth reflecting--I 
think we have to reflect--on the fact that legislative efforts 
to single out particular programs in Iraq or Syria do risk 
playing into that narrative and might, indeed, be welcomed by 
our adversaries.
    Finally, the United States has long advocated refugee 
resettlement based on the applicant's vulnerability, and 
measures that either privilege or disadvantage any group would 
depart from that principle and undermine our leadership.
    So, if there is a compelling interest, national security 
interest, in resettling Syrians, what questions regarding 
vulnerability should we be asking? First, we should not be 
asking whether the Syrian Refugee Resettlement Program, or for 
that matter any immigration program, can guarantee against 
admission of an individual with ill intent. To put this into 
perspective, between 2010 and 2013, some four million people 
entered our country to establish residence and almost none of 
them received anything like the scrutiny given to Syrian 
refugee applicants.
    In fact, applications for Syrian refugee admissions are, as 
we have heard, the most thoroughly vetted in our immigration 
and refugee process, involving reviews by intelligence, 
security, and law enforcement agencies. All applicants provide 
biometric and biographical data and undergo detailed interviews 
by officers of DHS. And I am convinced that these and other 
measures do provide a robust degree of safeguards that more 
than justify continuation of this program in light of the 
national security and humanitarian interests that they serve.
    In conclusion, in yesterday's Smithsonian.com website, 
Daniel Gross writes of Herbert Karl Friedrich Bahr, who applied 
for U.S. asylum in 1942, claiming to be a persecuted Jewish 
refugee. Bahr's story unraveled and he was convicted of 
conspiracy and planned espionage. The event helped to stoke the 
contention that Jews could be part of a fifth column of spies, 
as United States officials turned their backs on those who were 
in need of protection from the Holocaust. There were some 
voices who condemned this inaction, but, to use Gross's words, 
they were drowned out in the name of national security.
    Members of the Committee, I hope that we can ensure that 
voices supporting protection of the vulnerable are not drowned 
out and recognize that our Refugee Admissions Program not only 
meets our national security interests, but also reflects our 
values as a people.
    Chairman Johnson. Thank you, Mr. Schwartz.
    Our final witness is Lavinia Limon. Ms. Limon is the 
President and Chief Executive Officer of the U.S. Committee for 
Refugees and Immigrants, one of the nine domestic agencies 
contracted with the State Department to resettle refugees in 
the United States. Ms. Limon has more than 30 years of 
experience working on behalf of refugees and immigrants. Ms. 
Limon.

 TESTIMONY OF LAVINIA LIMON,\1\ PRESIDENT AND CHIEF EXECUTIVE 
      OFFICER, U.S. COMMITTEE FOR REFUGEES AND IMMIGRANTS

    Ms. Limon. Thank you, Mr. Chairman, Ranking Member Carper, 
and honorable Committee Members. On behalf of the U.S. 
Committee for Refugees and Immigrants, a national nonprofit 
organization serving refugees and immigrants with a network of 
over 90 agencies and offices around the Nation, I am honored to 
testify before you today in support of the U.S. Refugee 
Resettlement Program and to provide information on the program.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Limon appears in the Appendix on 
page 117.
---------------------------------------------------------------------------
    I want to thank you, Chairman Johnson, for complimenting 
our security screening fact sheet, which my staff works very 
hard to keep up to date, and we have changed it--it has been 
around for about 2 years, and we keep changing it as we learn 
more. And, of course, we are on the outside, so we do not have 
the inside information, but even the Government people say we 
got it right. So, that is pretty exciting.
    Chairman Johnson. I always appreciate good information, so 
thanks.
    Ms. Limon. Thank you.
    So, for over 100 years, USCRI has protected the rights and 
addressed the needs of persons in voluntary or forced migration 
worldwide. We are proud to do this work in the United States 
because our country is the world leader in providing protection 
to people who need it. This global refugee crisis requires 
strong leadership and the United States will inherently make a 
statement by our presence or our absence.
    For refugees who are the most vulnerable, even after 
fleeing their countries: the torture survivors, women at risk 
and those with complex medical situations. For those 
individuals, resettlement is often the only option. And for 
refugees who have languished in refugee camps without the right 
to work and with their children denied education, these are the 
individuals for whom we stand.
    We must not let the heinous acts in Paris make us turn our 
backs on children and families when our heritage and our 
history is to welcome refugees in the United States.
    When I was invited to testify, I went out to our network 
and I said, tell me what Syrian refugees that we have resettled 
are saying, and I want to share some of their messages with 
you.
    A Syrian refugee who came to Detroit with his wife and four 
children in September wanted everyone to know that he and his 
family are so happy to feel and be safe again after arriving in 
the United States. He told us, quote, ``I truly appreciate the 
kindness of the American people that we witnessed.''
    A Syrian family who arrived in Erie, Pennsylvania last 
night, told us that they were very happy to finally arrive in 
the United States after many years of waiting. The family was 
very thankful to be in Erie, Pennsylvania. The father was an 
electrician in Syria and he and his wife managed to keep their 
children alive while being displaced for almost 3 years. The 
father said that he felt an overwhelming sense of relief now 
that his children were finally safe.
    A Syrian refugee resettled in California had a video and 
music shop in Damascus before having to flee with his mother 
because of the conflict. They escaped to Lebanon, where they 
stayed for 2 years until they were admitted to the United 
States as refugees in February of this year. He told us, quote, 
``There are many, many innocent people who really need help,'' 
and he feels so blessed and lucky that he had the opportunity 
to resettle to the United States and wishes to see more Syrians 
have the ability to come here.
    USCRI supports a solutions-based approach. Based on our 
experience, we have the following recommendation. We would like 
the U.S. refugee programs to be supported through all aspects 
of our government and by elected officials as a safe 
humanitarian and foreign policy operation. We would like to see 
funding for the Department of Homeland Security increased to 
maintain the integrity of the security checks. We would like to 
see increased support for the Office of Refugee Resettlement to 
enhance the integration of newly arrived refugees.
    As the former Director of the Federal Office of Refugee 
Resettlement, and after a 40-year career--we gave you bad 
information there, Mr. Chairman--of helping refugees, I am 
proud and confident that our resettlement program works and is 
in the best interest of America.
    Thank you for holding this hearing and thank you for 
listening to our point of view.
    Chairman Johnson. Thank you, Ms. Limon.
    Mr. Gartenstein-Ross, let me start with you. You talked 
about the refugee flow--I believe this is what you said. Let me 
just clarify this. You think the refugee flow is a public 
relations disaster for ISIS?
    Mr. Gartenstein-Ross. Yes, absolutely, and this is 
something that they have made very clear in their own 
propaganda. They purport to be the home for Muslims worldwide, 
and the fact that people are fleeing from them and that other 
Syrians, rather than going from Assad-controlled areas or war-
torn areas, they are going to Europe rather than into ISIS-held 
areas is----
    Chairman Johnson. That was really the point I was going to 
make, because I think in other hearings, other briefings, we 
are being told that the refugee flow is not out of ISIS-
controlled areas. It really is, primarily, because of Assad 
bombing his own people. It is really the Syrian government's 
genocide, his killing his own people, that is really causing 
the refugee problem.
    Mr. Gartenstein-Ross. It is out of both. I mean, for 
example, if you look at the flow out of Mosul when the 
Christians left, that was all because of ISIS. But, yes, I 
mean, if you are looking at it, it is not as though most 
refugees are fleeing ISIS. I do agree with those 
recommendations, or with those assessments. But, let us be 
clear. There are refugees fleeing ISIS.
    And, the other point, the reason why it is a public 
relations disaster for them is because ISIS is right there in 
Syria.
    Chairman Johnson. They should be flowing into ISIS.
    Mr. Gartenstein-Ross. Right, and----
    Chairman Johnson. It is such a wonderful place.
    Mr. Gartenstein-Ross. Precisely.
    Chairman Johnson. Let us talk about the greatest risk. 
Again, I think, as we have heard testimony, the vetting process 
is redundant. It is pretty robust. As you said, pretty 
inefficient if you are trying to sneak people into the United 
States, at least----
    Mr. Gartenstein-Ross. Right.
    Chairman Johnson [continuing]. Less so going into Europe, 
with that refugee flow. As I said in my opening statement, I 
mean, I view the greatest risk literally as our completely 
unsecure borders and people flowing into other countries, then 
potentially coming in here. I just want to kind of go down the 
list, or down the panel here. What is the greatest risk? Then I 
will be asking you, what is the No. 1 thing we should do? Mr. 
Bergen.
    Mr. Bergen. I think Paris shows that the Schengen Europe 
Agreement, in a sense, is the greatest risk, because it is very 
unclear that European countries understand who is coming into 
other--I mean, so, for instance, the mastermind, his travels 
that Daveed laid out. It is still not entirely clear, but it 
seems the French did not know what the Belgians knew and they 
were not sharing information, probably. So, that is the biggest 
problem.
    And the secondary problem, then, is the Visa Waiver 
Program, which is related to that problem.
    And, finally, the big thing that we are missing is a global 
database of who these people are. We only know 4,500 of their 
names. There are 30,000 of them, and that is--if we do not know 
who these people are, everything else is moot.
    Chairman Johnson. Again, so the free flow within Europe, 
combined with the Visa Waiver Program, creates a real risk for 
those--I mean, to America, to our homeland, is the greatest 
risk.
    Mr. Bergen. Yes.
    Chairman Johnson. Mr. Jenkins.
    Mr. Jenkins. First of all, I would agree that you and 
Senator McCaskill, I think appropriately, broadened the inquiry 
from simply refugees to saying, let us look at the whole thing. 
Let us look at refugees, immigration, visa, VWP and border 
security and see what are our gaps and what are the most likely 
routes for terrorists, and I think there is probably consensus 
that the refugee may be the least productive route for them.
    I certainly would agree with Peter that a major 
vulnerability is Europe, one, because of the numbers. Two, 
because they do not have the capability of selecting--these are 
people that are arriving and the Europeans are then trying to 
sort them out. A third problem is that the Europeans are not 
sharing information with each other in these senses. And as a 
consequence of that, by the way, I think that either 
cooperation within Europe is going to increase or we are going 
to see increasing border controls within Europe, which is going 
to challenge the European notion of free movement, altogether. 
Border controls are going to come back up.
    The weakness that I think that we have in our system 
overall is that we are dependent on lists of names. We do not 
have--in terms of looking at visa, this is--we have a robust 
system for interviewing refugees and for screening that, but a 
lot of these other things are dependent on a name being on a 
list. If we do not have a name on a list, we do not have much 
else to go on. It would be useful, at the very least, if we 
could develop new ways of looking at this that we can say, 
look, there are some of these people that we can clear pretty 
fast because of who they are, and there are others that it is 
simply going to require a new way of taking a look at this.
    Chairman Johnson. In other words, if people have not 
created that ripple, you have a problem.
    Mr. Jenkins. Right.
    Chairman Johnson. I will pick up on this, but I will go to 
Senator Heitkamp out of respect for time.
    Senator Heitkamp. Thank you, Mr. Chairman.
    I wanted to just hang around because I think what you are 
talking about is so important, and I think as you have 
complimented the Committee, and I share that compliment, or I 
share your complimentary statements with the Chairman, I think 
we have a great panel here.
    And, so, just to kind of begin it, from everything that I 
have read in your testimony and what you presented here, would 
you say that the focus that we have put, kind of at this point 
solely, on the Refugee Resettlement Program is perhaps 
misplaced and it has diverted attention from much more critical 
security issues that we have? Is that--it seems to be unanimous 
on the panel. Just let the record reflect, everyone is nodding 
their heads. If you disagree, please weigh in.
    And, obviously, you represent a great cross-section of 
national security experts. Would you say that your view is kind 
of the majority view of people who study national security? So, 
you guys almost talked to each other at some point here. Can 
you tell me, building on what the Chairman has asked, what 
things you think we are missing, that we have not talked about 
today?
    Obviously, the Visa Waiver Program is on everyone's mind. 
Along with Senator Feinstein, we are introducing a bill to 
address what we see as gaps. She has been on this for a long 
time. Obviously, it is much more timely now, so it will be a 
great bipartisan bill. We expect we are going to have a 
discussion on it.
    But, what are we missing that people within your expertise 
today are saying, wow, why do they not get this? And that is 
for anyone.
    Mr. Gartenstein-Ross. One of the key things I would 
recommend, and I agree with Peter entirely about the greatest 
threat in terms of entering--terrorists entering the United 
States being the Schengen Zone and VWP. I think the key thing 
for me is, in the past, because of the Schengen Agreement, 
there is certain information that the United States does not 
get from European allies because of that agreement. Over the 
course of the past several months, we have seen the virtual 
collapse of the Schengen Agreement, which means that our own 
leverage with our European allies is at an all-time high.
    So, I would strongly recommend, Senators, to talk to U.S. 
Customs and Border Protection to figure out what they need, 
what information they need from Europeans, and where Schengen, 
in the past, has posed a threat to U.S. border security to see 
what we might be able to do in bilateral or multilateral 
negotiations with our European allies.
    Senator Heitkamp. Other things that we have missed.
    Mr. Bergen. Well, I will tell you something that has gone 
right, which is if you look at ISIS propaganda, they are very 
concerned about Turkey now, because the pressure on the Turks 
has really reduced, or at least impacted, the foreign fighter 
flow. So, any encouragement and/or expertise or aid we can give 
to Turks to increase their customs and border patrol would be 
very useful, because that is where, overwhelmingly, the foreign 
fighters are coming in.
    Senator Heitkamp. OK.
    Mr. Jenkins. Let me add to a comment by Daveed in terms of 
both putting pressure on Europeans, but assisting them, as 
well. This is probably going to be more emphasis on bilateral 
agreements than on multilateral. There are profound differences 
in Europe, policy differences, even philosophical differences 
about how to deal with these issues--about intelligence issues, 
about privacy issues, about resettlement issues and about 
returning foreign fighters, whether they should be charged with 
criminal violations or whether they should be rehabilitated and 
put back into society.
    When you deal with that many differences in a group like 
the European Union, it tends to dilute the efforts down to sort 
of the least common denominator, and so we really have to work 
closely on a bilateral basis to ensure that we are getting the 
information that we need for our own national security 
interests.
    Senator Heitkamp. Go ahead.
    Mr. Schwartz. I would just make four very brief points, and 
they are a little bit disjointed, since we have been talking 
about a lot of different issues.
    First, I think support for front-line States is absolutely 
critical. I was part of a letter from 22 former officials, 
including Deputy Secretary of Defense Wolfowitz and former 
Under Secretary of Defense for Policy Michele Flournoy and 
others, urging an additional allocation of up to $2 billion, in 
large measure to support Jordan and Turkey, because they are 
experiencing such significant challenges, and that would be a 
very valuable symbol of solidarity and support.
    My second comment is I agree with the other panelists that 
the refugee program is not anywhere near the major threat.
    My third and fourth points are that I agree that we need to 
take a very close look at the Visa Waiver Program and other 
programs, but I also think that we have to accept the fact or 
understand the fact, without prejudice to that point about 
looking at the Visa Waiver Program, we have to accept the fact 
that our strength is also our vulnerability. I mean, our system 
of immigration is responsible for creating a superpower. 
Without the kind of immigration policies that we have had over 
the past century or more, the United States would not have 
achieved the kind of economic and political dominance that we 
have in the world. And we have been spared some of the very 
challenging, dramatically challenging, demographic challenges 
that some of our European allies and Japan face. That is our 
strength, but it is also our vulnerability.
    Ms. Limon. Senator, I think the greatest risk is that we 
allow our political discourse and climate in the United States 
to make it acceptable to be anti-refugee and anti-immigrant, to 
say things that are negative and stereotypical of people, 
whereby the mainstream population thinks it is OK to turn our 
backs on newcomers.
    I think when you look at Europe, you can see the sort of 
social isolation that a lot of their immigrant communities live 
with day to day, and the strength of America, the beauty of 
America, is 
that we do not do that, that our values and our ability to 
assimilate--and I will use that old fashioned word--we do, in 
fact, assimilate new people. By the second and third 
generation, they usually cannot speak their grandparents' or 
parents' language.
    When people are willing to share our values of freedom and 
individuality and acceptance and incorporation, they become 
Americans, and we native-born people look at them at some point 
and go, oh, they are American. I do not know when that shift 
takes place, but it takes place. And that ability to 
incorporate keeps us from having that group that may turn on us 
internally.
    And, so, we have to keep that political discourse and have 
the leadership to say to the American people--and it is not 
easy, because people are different and people do not like 
different and it makes everybody uneasy--but it is the 
political leadership that have to keep the dialogue in that 
positive way that it reinforces the beauty and strength of 
America.
    Chairman Johnson. And, unfortunately, the past is not a 
complete predictor of the future. So, I think that is a real 
particular question.
    I will start with Mr. Gartenstein-Ross again in terms of 
the greatest risk.
    Mr. Gartenstein-Ross. As I said before, I agree with Peter 
about the Schengen Agreement and the problems within Europe as 
being the greatest immediate risk in terms of terrorist entry.
    But, I do want to highlight something else which is very 
much related. This hearing, obviously, for very good reason, 
has focused on the Islamic State, on ISIS. But our enemy for 
the past decade and a half has been al-Qaeda, which has been 
pushed from the headlines, and this is not a good thing. Al-
Qaeda today enjoys a lot more freedom of movement than anyone 
would have thought possible 5 years ago.
    If you look at recent U.N. delistings, including Mohammed 
Islambouli, who has been fingered by National Public Radio 
(NPR) as a high-level leader in the Khorasan group, you can see 
that a lot of the U.N. sanctions are getting peeled back. Al-
Qaeda is again receiving State support in Syria. Its affiliate, 
Jabhat al-Nusra, which is part of a coalition called Jaysh al-
Fateh, is getting support from Qatar, from Turkey and from 
Saudi Arabia, and I think that we need to pay attention to this 
rebranding of al-Qaeda as a more reasonable jihadist force.
    This is something that, if we do not pay attention to it 
now, I believe we will fully regret this in several years, not 
just in terms of immediate entry to the United States, but 
ability to operate throughout the world.
    Chairman Johnson. Well, for my own part, I always refer to 
them as Islamic terrorists, and there are a number of different 
variations of that, a number of different groups, but they are 
Islamic terrorists and they are at war with civilization.
    Mr. Schwartz, what is the greatest threat?
    Mr. Schwartz. I am sorry, in terms of----
    Chairman Johnson. I guess, I could sign on to former 
Chairman of the Joint Chiefs of Staff, Admiral Mike Mullen, and 
say the greatest threat to our national security is our debt 
and deficit. I think that is true.
    Mr. Schwartz. I am sorry, is----
    Chairman Johnson. Our debt and deficit. I mean, I think 
that is true, but this hearing is really about the threat that 
we face because of Islamic terrorism, so I think that is--and, 
again, we were talking about our vulnerabilities. You were 
talking about----
    Mr. Schwartz. Yes. I mean, as I said----
    Chairman Johnson [continuing]. VWP, those types of things. 
I am looking for more specifics from that standpoint.
    Mr. Schwartz. Yes. Sure. As I said before, I think my 
expertise here is on our refugee programs, in particular, and 
to my mind, the refugee programs are far from our greatest 
threat. I think they are durable programs with processes----
    Chairman Johnson. OK, so you voice your support for that--
--
    Mr. Schwartz. Right.
    Chairman Johnson [continuing]. But where is our greatest 
vulnerability within these programs, within our acceptance of 
refugees and asylum seekers and immigrants?
    Mr. Schwartz. Well, as I said, I think it is clear that the 
Visa Waiver Program has greater vulnerabilities than the U.S. 
Refugee Resettlement Program, but I am, frankly, not an expert 
on all of the immigration programs. But, I can tell you that 
the Refugee Resettlement Program, which I know very, very well, 
is not one of those.
    And, if I could just make one other point, which I made in 
my testimony, but I really think it is important. If Members of 
the Committee feel that the Department has made the case about 
the security procedures in the Refugee Resettlement Program, 
you should think long and hard on this issue of additional 
legislation because of my concern that it does play right into 
the narrative of us against them, our choosing a particular 
group and creating greater obstacles when we have a system in 
place that is rigorous and responsible.
    I think our geopolitical interests require that we reflect 
very carefully about that kind of legislation. And even if the 
President has promised to veto it, the introduction of it and 
the passage of it is very worrisome.
    Chairman Johnson. Ms. Limon, do you want to take another 
stab at it, or do you want to stand by your----
    Ms. Limon. I will just add that since last week, my office 
has received many phone calls of people who are extraordinarily 
worked up about Syrian refugees, and they will say things like, 
``I live in Des Moines. I want the names and addresses of every 
Syrian you brought here.'' And that is one of the more polite 
things that are said. It has been kind of scary.
    And when we look at resettling refugees right now, and, as 
I said, someone arrived in Erie last night and people are going 
to arrive in Chicago tomorrow and we have State Government 
officials saying to us, we want the names and addresses of 
these people, and we are like, whoa, what is going on here? 
These people are legally admitted to the United States. And are 
we--how are we going to protect them? These are people who have 
been persecuted, who have been fleeing violence and persecution 
because of their race, religion, or membership in an ethnic 
group, and they come to America, the land of the free, and we 
have to say, you may be persecuted because of your membership 
in a particular ethnic group.
    It is a very dangerous time, and I will tell you, there are 
thousands of people who do this work around the country who are 
calling us going, ``What am I supposed to do?''
    Chairman Johnson. Which is why I think the certification 
process would give the American people the assurance that I 
think they probably are looking for. Senator Carper.
    Senator Carper. I apologize for being in and out. There is 
a lot going on, and I am very much interested in these issues. 
I spent a lot of time, as the Chairman knows, on these issues, 
and as does he.
    Something I said earlier that I think you heard, and I 
talked about competing moral imperatives, and one of the moral 
imperatives which was reminded to us by Pope Francis a month or 
two ago was our obligation to the least of these. When I was 
hungry, did you feed Me? When I was naked, did you clothe Me? 
When I was thirsty, did you give Me a drink? When I was a 
stranger in your land, did you take Me in?
    And the admonition--I think the biggest applause line that 
he got when he spoke at a joint session of the Congress was 
when he invoked the golden rule, that we should treat other 
people the way we want to be treated. I think everybody stood 
on their feet and applauded for a long time.
    And, so, we have that moral imperative that faces us 
squarely and I am reminded of every day, those imperatives, as 
we confront this challenge. But we also have a moral imperative 
to 325 million people who live here and who want to be able to 
live to a ripe old age and have a good life. And, the question 
is, can we do both? Can we do both? Do we have to be true to 
one and not to the other?
    Another Committee that I serve on, in fact, one of the 
things I was out of the room on was because of my 
responsibilities on the Environment and Public Works Committee. 
We have oversight over the Nuclear Regulatory Commission. But, 
we are always wrestling with the question, in that Committee, 
of can we have cleaner air, cleaner water, and at the same time 
have a stronger economy, or is it a choice of one or the other? 
I think it is a Hobson's choice. I think we can have both, and 
if we are smart, we will have both.
    But, in terms of the moral imperatives, how do we meet both 
moral imperatives? How do we meet both moral imperatives, 
especially the latter one, to keep people safe, and one of them 
is to the rigor of the refugee programs, which is, I think, 
pretty well demonstrated now, and we are drilling down on the 
Visa Waiver Program to see what is good about that, and it has 
certainly improved over time. Is there some more that we can 
do? I think so.
    One of the things, we have a very senior guy that the 
administration has nominated, I think a very good guy, Adam 
Szubin. I understand he is the perfect guy and his nomination 
is hung up in the Banking Committee for reasons that I do not 
understand. He is, I think, the guy who did the financial--sort 
of helped bring Iran to its knees on the financial side and cut 
off their funding. He did the same thing with North Korea, and 
we would like for him to do that with ISIS, too, if we can get 
him confirmed.
    So, there are some things that we are doing, can be doing, 
but just respond, if you would, to my question, please. Thank 
you.
    Mr. Jenkins. We have become a risk-averse, security-
obsessed nation. That is understandable. I mean, we are still 
in the shadow of 9/11. We are dealing with these extraordinary 
times and threats. But we cannot remove all risk, and we have 
been doing a pretty good job, in terms of our domestic 
intelligence, in terms of preventing these attacks and so on. 
But we do not get to zero.
    The problem is, if we try to get to zero, that has costs in 
other directions, costs in terms of real economic costs if we 
were to abolish the Visa Waiver Program, costs in terms of 
moral costs, in terms of our reputation as a society.
    So, I think part of it is, without dismissing the very real 
threat, and this is very much a long-term thing, this is the 
shape of things to come, but we have to be able to accept that 
none of these programs, not one of these, provides us with an 
absolute guarantee--no amount of screening, no signatures, or 
so on. You can, as the Senate, keep the heat on people on this, 
and that is important, because over a period of time, measures 
become routinized, people go slack, and you can energize that. 
But, we do not get to zero.
    Senator Carper. Good. Excellent point.
    Others, please.
    Mr. Bergen. Can I just make a factual observation? Every 
person who has been killed by a jihadi terrorist in this 
country has been killed by an American citizen or resident 
since 9/11. Refugees have not been involved. I mean, the real 
problem, the domestic terrorism problem, is provoked by 
homegrown terrorists.
    Senator Carper. That is a great point.
    Mr. Jenkins. Great point.
    Mr. Schwartz. Senator Carper, I certainly agree that the 
Refugee Resettlement Program has robust procedures in it to 
help ensure the security of Americans, and I also believe that 
the Refugee Resettlement Program is the best expression of 
American values, the moral imperative.
    But let me repeat what I said in my testimony, which is 
that I also believe in this particular instance, and in many 
others, that the continuation of this program serves vital 
national security imperatives. Our burden sharing with front-
line States that are hosting over four million refugees. And 
burden sharing with European governments that we are asking to 
treat humanely hundreds of thousands of Syrian refugees. These 
are governments that we need in terms of the geopolitical 
objectives that we are trying to achieve in Syria and other 
places in the world.
    And third, and perhaps most importantly, we rebuke the ISIS 
narrative of us versus them. Our programs are an expression of 
the proposition that it is not the Muslim world and everyone 
else. We combat that ISIS narrative day in and day out with our 
refugee programs. So, I think we have stakes in these programs 
that go far beyond the humanitarian imperatives.
    Senator Carper. Wonderful points. Thank you. Thank you all.
    Chairman Johnson. Mr. Jenkins, you talked about the 
intelligence community (IC) being overwhelmed by the volume. 
Keep cool. Stay smart. I do not think--no one would dispute 
that we cannot turn this into a risk-free world, but these are 
threats and I believe these threats are growing. I mean, we 
just witnessed this in Paris.
    So, if we sit back and play defense the whole time, I do 
not think that is particularly smart. How do we go on offense? 
I mean, how do we solve the problem then?
    Mr. Jenkins. I would not argue for a defensive strategy. I 
agree that we do have to--we do have to become more effective 
in how we deal with this in Syria. I personally happen to think 
that it is not by deploying large numbers of American forces on 
the ground. I think the numbers that people mention 
underestimate the task. I think that that would become very, 
very quickly an unsustainable thing. Can we do other things, 
with the air campaign, with increasing the number of special 
operations personnel? I think we can even do more creative 
things. For example, our efforts to create a guerilla army and 
then throw it into battle against ISIS, that has turned out to 
be----
    Chairman Johnson. It obviously did not work.
    Mr. Jenkins. It did not work. However, that does not mean 
that competitive recruiting will not work. I am not talking 
about throwing people into battle. I am talking about, among 
Sunnis that are exposed to ISIL's areas of influence, it may 
make more sense for us to recruit them and pay them, in a 
sense, just to be on our payroll rather than spending the money 
to go after them. Let us provide a place in Syria where we can 
bring people on board.
    Chairman Johnson. So, let me ask, has the threat grown or 
receded over the last year and a half under the current 
strategy?
    Mr. Jenkins. I would say that in some cases, certainly, we 
have checked ISIL's advances.
    Chairman Johnson. Yes, but has the threat grown or has it 
receded? You are saying the intelligence community is 
overwhelmed by the volume. Is not the volume growing?
    Mr. Jenkins. The intelligence community in Europe is 
overwhelmed by the volume. We are----
    Chairman Johnson. And, again, that is----
    Mr. Jenkins. We are keeping up with it.
    Chairman Johnson [continuing]. That is our greatest threat, 
is what you are telling us.
    Mr. Jenkins. It is.
    Chairman Johnson. So, that threat is growing. So, the 
strategy currently is not working, so the risk is increasing.
    Mr. Jenkins. The risk of terrorism outside is going up. 
That, I think, is true for a variety of reasons. In fact, as I 
said, even as we have more success on the ground, that threat 
outside is going up. So, you cannot connect necessarily--you 
cannot look at the threat outside as evidence of failure inside 
Syria. That threat can go up even with success inside.
    Chairman Johnson. But, again, remember the mission of this 
Committee is to enhance the economic and national security of 
this Nation. So, you have a destabilized Middle East. You 
started stabilizing nations in Europe. That destabilizes the 
entire world economy and that also affects our economic 
situation, as well.
    Mr. Jenkins. It clearly does. So far, though, so far, we 
have been able to manage--we have been able to manage this. 
This is a matter of, can we improve things as opposed to 
fundamentally alter our strategy? So, over a period of time. I 
think we have been extraordinarily cautious.
    Chairman Johnson. Do you think it is a good thing that Iran 
and Russia are gaining greater influence in the Middle East? Is 
that a good----
    Mr. Jenkins. Russia----
    Chairman Johnson [continuing]. Is that good for our 
regional security and world peace?
    Mr. Jenkins. OK. Russia is not a newcomer to Syria. I mean, 
when the Syrian army crossed----
    Chairman Johnson. I understand, but its influence is 
growing in the Middle East, correct?
    Mr. Jenkins. I am not sure that it is.
    Chairman Johnson. Mr. Gartenstein-Ross, do you think that 
is a good thing?
    Mr. Gartenstein-Ross. No, I certainly do not think it is a 
good thing that either Russian or Iranian influence is growing, 
which both of them undoubtedly are.
    In terms of the strategy, I think that there are things 
that we can do. As Brian said, and this is not a duck from your 
question, my direct answer to your question is that the threat 
has grown worse in the past year and a half. But, No. 1, if you 
look on the ground in Iraq and Syria, ISIS has experienced 
about a steady year of losses with one very good week in May, 
where they gained Ramadi, Baiji, and Tadmur in Syria. But, 
publicizing their losses is very important because they have a 
narrative of strength.
    And I would say one area where the United States has 
clearly failed is it has not publicized their losses, including 
their losses outside of Iraq and Syria. They have at least four 
major losses in Africa that almost no one is aware of, 
including people in Africa. I know this because at an African 
Union seminar I was at last month in Namibia, people were 
absolutely unaware of all of ISIS's setbacks there.
    A second reason why I would say that things have grown 
worse is if you look at the terrorism problem writ large, 
Tunisia is now fundamentally threatened in ways that it was not 
2 years ago. Yemen is falling apart, and that is not an ISIS 
issue. There are many other things that are related, and ISIS 
has kind of glommed onto that.
    But, we have to recognize the overall situation is one 
where violent non-State actors, including jihadist violent non-
State actors, are gaining much more ground. This is a real 
problem, not just the problem set of Islamic terrorism, but the 
problem set of the democratization of violence. We are going to 
see much more violence at a sub-State level. So, a lot of these 
concerns, including what Senator Carper, I think, very 
articulately describes as competing imperatives, they are going 
to remain, and this is one reason why, when discourse becomes 
so locked and very jaded, as we have recently seen, I think we 
do ourselves a disservice if we are not able to reason through 
together as one body these very, very difficult issues that we 
are going to be grappling with for a long time to come.
    Chairman Johnson. Senator Carper.
    Senator Carper. Thank you.
    On the question of the influence of the Russians and the 
Iranians waning, I think one of you maybe said maybe not so 
much. Another, I think I understood you to say yes. Actually, 
Iran is sort of--talking about competing interests, you have 
competing interests there, as you know. You have the one group 
led by the Supreme Leader and the Revolutionary Guard, and you 
have another group led by the elected president of the country, 
in a country where, I want to say, like, 78 million people, the 
average age of the country is 25. And you have a generational 
divide there that we will see where they go. Most of the places 
where they seem to be involved in the Middle East, it has more 
to do with Shia versus Sunni, I think, than anything else.
    I want to go back to something, I think it was Mr. Bergen, 
that you said, talking about the greatest threats, at least the 
greatest threats to us. I do not believe, from what I can tell, 
that the greatest threats to us are necessarily with respect to 
Syria and ISIS. I do not think they are necessarily related to 
those that are going through the Refugee Resettlement Program. 
I think we pretty well established that. I am not sure that the 
greatest threats are those who are going through a Visa Waiver 
Program, or those who come here on a tourist visa, or a student 
visa, or some other way that I am not thinking of.
    I think you said it, Mr. Bergen. The thing that keeps me up 
at night more than anything else is the folks that are here, 
homegrown, born here, raised here, in many cases, and they 
become radicalized, and they can do great damage from the 
inside. Those are the folks that I worry about.
    And, in order to address that threat, reduce the threat, a 
couple things, and we talked about them, but they bear 
reiterating, and one of those--I read a couple of books not 
long ago by a woman named Phyllis Schwartz. Do I have that 
right? Jessica Stern--not even close. Jessica Stern. 
[Laughter.]
    Jessica Stern, one dealing with ISIS, another dealing with 
terrorism. She went around the world, just met with all kinds 
of terrorists. I cannot believe they let her in and just opened 
up their hearts to her, but they did. And she--the older book 
is the 
one--not the ISIS book, the ISIS book is the newer book--but 
one of the things she found in talking to all these terrorists, 
a lot of them were faith-based, and they--but they were people 
who, mostly guys, who had not had a lot of success in their 
lives and they were looking for a way into the big time.
    And the big time could be to be involved in a military 
operation, to be trained, be effective, be a hero, to get 
killed and go to heaven and then you would have all these 
brides or wives. If they do not, they get paid. They get on 
somebody's payroll and make some money. Their families, if they 
do die, actually get money from the organization, in this case, 
ISIS.
    So, one of the points that came to me from reading her 
first book was if ISIS is not successful, if they are losing 
territory and not gaining territory, if we are cutting them off 
financially, they become a whole lot less attractive. In their 
social media, they can still pump out the social media, but if 
the back story is these guys are faking it, it is like, as you 
said in Montana, all hat, no cattle.
    So, that is why it is so important--Mr. Chairman, I agree 
on this--it is so important to crush these guys, sooner rather 
than later, but to do that.
    The second piece is we actually have the ability--the 
Department of Homeland Security has this ability. We talked a 
little about one of the programs that they have that we have 
been asked to fund that enables them to run a counter-message 
within the Muslim communities, here in our country, where there 
are a lot of people and where a bunch, particularly the young 
people, are subject to being radicalized, but to have a 
countervailing message out there and work with the community 
there to make sure that that is an effective message, an 
effective message.
    So, those are a couple of thoughts that I would leave with 
us. Do you all want to react to any of that? If you do, please 
do. If you do not, that is OK.
    Mr. Schwartz. As a Minnesotan, by way of New York and 
Washington, but having spent my last 4\1/2\ years at the 
University of Minnesota, I do need to say a word about the 
great work of the U.S. Attorney there, Andrew Luger. The 
countering violent extremism programs are one element, but what 
he has done and what his office has done is engage refugee and 
immigrant communities in very significant and substantial ways, 
in dialogue and in discussion, helping to understand the 
challenges that they confront without sacrificing in any way, 
shape, manner, or form the law enforcement imperative of his 
office. And, I think it is a real model for the rest of the 
country and deserves mention.
    Senator Carper. Just a show of hands. On the issue of the 
greatest threat that we face to the homeland, whether it is 
refugees, VWP folks, travel visas, student visas, homegrown, 
does anybody, by a show of hands, also think that the homegrown 
threat may be the biggest threat that we face?
    [Show of hands.]
    Thank you. Four out of five. Thank you.
    Chairman Johnson. I do want to talk a little bit about the 
incentives created. In testimony we heard, and this is pretty 
well widely known, more than seven million refugees displaced 
within Syria, four million refugees outside, hundreds of 
thousands have now flown into Europe. The more that are 
accepted in, will not more flow? Is that not a destabilizing--
again, Ms. Limon, you talked about the lack of assimilation. 
Part of the problem, I think, in France is that they have, just 
around Paris, about a 1.7 million Muslim population, not 
particularly assimilated, people that lack futures. And so they 
are drawn to this or more easily recruited to this type of 
ideology.
    So, from my standpoint, the solution certainly is not to 
show greater compassion and allow the flow to go because you 
are just going to exacerbate the problem. Is that not a 
problem? Anybody?
    Ms. Limon. Yes, it is a problem. I think it is pretty 
unprecedented, as well, since World War II, the idea of all 
these people coming in. And I think Europe faces huge 
challenges in dealing with this. But I think it is also time--
when Germany, Merkel says, fine, we will bring in--I think they 
are bringing in 800,000 people, and she sees that as a benefit 
to her country, which I happen to agree with her, but they are 
going to have to do this wholeheartedly. And that is, when you 
talk about those communities outside Paris, there are second, 
third generation Moroccans and other Middle Easterners who live 
there who do not feel like they are French, and that is the 
beauty----
    Chairman Johnson. Again, it is that lack of assimilation--
--
    Ms. Limon. That is right.
    Chairman Johnson [continuing]. The Balkanization of 
societies----
    Ms. Limon. That is right.
    Chairman Johnson [continuing]. Which is not a good thing.
    Ms. Limon. That is not a good thing.
    Chairman Johnson. It is very destabilizing.
    Ms. Limon. And Europe has to deal with that and we need to 
make sure we do not do that here.
    Chairman Johnson. Mr. Bergen, I do have to challenge you. I 
mean, you talked about all the terrorist attacks being 
perpetrated by U.S. citizens, but the Tsarnaev brothers were 
not homegrown. I would argue certainly that the 9/11 hijackers 
were on visa overstays. That, by the way, is kind of ignoring 
the fact that Islamic terrorists were at war with us since at 
least the mid-1990s, that did bring--in the end, we had 9/11, 
and--
    Mr. Bergen. Well----
    Chairman Johnson. And, by the way, talking about whether 
they are perceived as winners or losers, I mean, you down a jet 
3 weeks ago. You have a successful, and I would consider low-
tech, terrorist event in Beirut, I would say another low-tech 
terrorist event in Paris. I do push back on the sophistication 
of these. People talk about sophisticated, like, it kind of 
deludes us. Well, it is too sophisticated. It takes an awful 
lot of planning. It seems to me pretty easy to say, here are 
the targets. We are going to hit them at zero hour. Take a look 
at the weapons, readily available on the black market. I think 
the explosives may be a little more complex. But, just speak to 
the real threat and the growing threat. Mr. Bergen.
    Mr. Bergen. Well, I think you are absolutely right, sir, 
the attacks in Paris were not sophisticated, but they were 
complex, putting the operation together.
    Chairman Johnson. They were organized.
    Mr. Bergen. They were highly complex.
    The point I was trying to make, sir, since 9/11, yes, the 
Tsarnaev brothers came as minors into this country, and the 
real problem was that they got radicalized here. They were 
perfectly normal. They lived here for 10 years. It was the last 
2 years of their existence----
    Chairman Johnson. Point taken.
    Mr. Bergen [continuing]. That they got radicalized.
    Chairman Johnson. OK. Does anybody else want to comment? 
Mr. Gartenstein-Ross.
    Mr. Gartenstein-Ross. Yes. Just, I agree with you. You made 
a point about winners and losers. Obviously, this is a point 
where ISIS has had a string of successes and, at such a time 
trying to have an information-operations campaign around their 
losses is just not going to be particularly effective.
    But, I do think that there is very strong proof, and I 
testified before the Senate about this back in April, that they 
have consistently exaggerated their strength, and I do think 
that we can do a better job of knocking that down, bearing in 
mind that when they have big successes, like these awful 
attacks that we have just seen, you are not going to be able to 
convince people that they are on the losing side.
    Chairman Johnson. No. I would argue ISIS's sophistication 
is the use of social media. The way that they are able to 
recruit and inspire people to join this barbarity, that takes a 
fair amount of sophistication to be able to identify people 
willing to blow themselves up. But, the actual attacks 
themselves strike me as relatively low-tech, which gives me a 
great deal of concern.
    Mr. Bergen, did you want to say something?
    Mr. Bergen. No. I totally agree.
    Mr. Schwartz. Mr. Chairman, can I address the other 
question you asked, about incentives.
    Chairman Johnson. Sure.
    Mr. Schwartz. In most cases, when you are dealing with 
migration and it is economic migration, you feel you can, as a 
matter of policy and ethics, it is reasonable to create certain 
deterrents to undocumented migration. The dilemma in the Syria 
case is that, yes, there are seven million internally 
displaced, four million refugees, but very few of those are 
people who did not have good reason to move, based on 
persecution, abuses, or conflict.
    Now, traditionally, there are three ways that the cases of 
people in that situation are resolved. They can be locally 
integrated into the places they flee, they can return to their 
country of origin, or they are resettled in a third country, 
and traditionally, third country resettlement is really for a 
pretty small minority of refugees, and----
    Chairman Johnson. Which, again, that is my point. It points 
to what the solution should be, which is to attempt to 
stabilize the situation in Syria and Iraq, which requires----
    Mr. Schwartz. Well, that was----
    Chairman Johnson [continuing]. Wiping ISIS off the face of 
the earth in terms of their territory.
    Mr. Schwartz. But, I think it also----
    Chairman Johnson. I do not see how that--I mean, I think 
that has to be the solution. I guess I was baffled, Mr. 
Jenkins, by your assertion that is going to make it even worse.
    Mr. Jenkins. No, it is not that I am saying that, look, do 
not go after them because it will make it worse. I am saying 
that that is a consequence we have to be prepared for anyway. 
That is not a reason not to go after them. We have to continue, 
and indeed increase, our efforts to destroy ISIL. I have never 
been equivocal about going after ISIL. There is no option. 
There is no option that allows the continued existence of ISIL. 
And I would agree with Daveed, I do not make these distinctions 
between a bad ISIL and a slightly less bad al-Qaeda. We are 
talking about an ideology----
    Chairman Johnson. It is Islamic terrorism.
    Mr. Jenkins. Yes.
    Chairman Johnson. And we, I think, as a civilized world, it 
is about time we remain--we begin or become completely, 100 
percent committed to defeating them. And I realize it is a 
long-term process, but----
    Mr. Jenkins. That is the point.
    Chairman Johnson [continuing]. We have taken care of them 
in one situation and said, OK, we have kind of mopped that up, 
and we forget about it.
    Mr. Jenkins. No, that is the point here, that, first of 
all, this is about this type of ideology, No. 1, that it--that 
we must destroy the military formations. I cannot tell you that 
we will ever change people's souls or beliefs. There are still 
Nazis in the world that believe in Nazism. But we can destroy 
these organizations, and, hell, I have been the Senator Cato of 
this in terms of repeating regularly that, furthermore, al-
Qaeda and ISIL must be destroyed.
    However, we have to accept that this is going to be a very 
long task and, therefore--and, therefore--pick our way through 
this in a way that we can sustain it in the long run and not do 
things that will immediately erode both international and 
domestic public support and not do things that are going to be 
counterproductive. So, this is not about going after them. This 
is about how we go after them.
    Chairman Johnson. Yes. I think we are on the same page 
here. It requires, again, the 100 percent commitment by the 
civilized world to understand the reality of this, it is not 
going away, and it has to be destroyed.
    Mr. Jenkins. Absolutely.
    Chairman Johnson. Anybody else----
    Mr. Schwartz. Well, I would only say that there is nothing 
inconsistent between that objective and the efforts to bring 
together the major powers that are so dramatically impacting 
the situation on the ground in Syria today. I credit the 
administration for the efforts it is making. If that does not 
happen, then the humanitarian crisis that really overlays this 
whole situation will just be continued, because however 
desirable these objectives are, the destruction of ISIS, that 
is a long-term proposition, and right now, there is an 
imperative to chart out some sort of disposition of the 
situation in Syria and to address the humanitarian crisis.
    Chairman Johnson. I would say the imperative is to make it 
not so long-term. I would say the imperative is to shorten the 
term of when we finally do achieve basic victory.
    But, anyway, let me give everybody a chance to kind of 
summarize. I have taken enough of your time. And we will start 
with you, Ms. Limon.
    Ms. Limon. Thank you. Senator, I was just going to add 
that, as we have already agreed, the majority of the refugees 
are actually fleeing the government of Syria and Assad----
    Chairman Johnson. Right.
    Ms. Limon [continuing]. And their actions. And having spent 
my entire career trying to help refugees fleeing bad 
governments, I am really wishing we would start putting our 
attention on those actions--not to take away from destroying 
ISIS and al-Qaeda and the rest of it, that is a good thing. 
But, it is also--when does the international community punish 
governments who have bad policies that have people fleeing? We 
have tens of thousands of Eritreans fleeing what is going on 
inside there. I could give you a whole laundry list. I will not 
take your time. When do we have policies where we say, we have 
to go to the source of this----
    Chairman Johnson. I would say, when America leads.
    Ms. Limon. Thank you.
    Chairman Johnson. Mr. Schwartz.
    Mr. Schwartz. The issues of this hearing have been many and 
varied and quite fascinating. The issue of the day is the 
legislation that was just enacted in the House of 
Representatives, and I know you have expressed your 
perspectives on it. I would only ask that if you and other 
members have a reasonable degree of confidence that the 
testimony of the administration was persuasive in terms of the 
kind of security measures that are in place, I would ask that 
you consider all of the implications of this legislation in 
terms of its implications with respect to our friends, our 
allies, governments, and people that are listening very, very 
closely to what comes out of the U.S. Congress and the 
administration. I have expressed my views on this----
    Chairman Johnson. Right.
    Mr. Schwartz [continuing]. Early in the hearing, so you 
know----
    Chairman Johnson. I generally do try and consider 
everything. I think a simple certification provides the 
American people the type of assurance that all of these 
redundant safeguards and all of those vetting processes are 
actually done. And, like I say, we require certification from 
CEOs under Sarbanes-Oxley----
    Mr. Schwartz. But my question is, why target this 
particular program. the one that is least----
    Chairman Johnson. Because hundreds of people have been 
slaughtered in the last 3 weeks.
    Mr. Schwartz [continuing]. Necessary in the----
    Chairman Johnson. Mr. Gartenstein-Ross.
    Mr. Gartenstein-Ross. Well, I thought this was a strong 
conversation. As Eric said, the topics were many and varied. We 
have talked at great length about the primary topic, which is 
the risks of refugee resettlement. We had a consensus on this 
panel. So, let me just point to a couple of things that relate 
to some of the last rounds of questioning.
    I think one thing that I would love to see the legislature 
exercise more oversight over is our CIA program for arming 
Syrian rebels. A lot of the recent revelations are 
extraordinarily disturbing, and I think that they are making 
the situation worse in terms of the primary topic that we are 
talking about, which is refugees. It also is something which I 
think is at a disservice to our strategic interests.
    The second thing I will say is, we talked about winners and 
losers, and that is another area where I also think that the 
legislature could play a very strong role. This, obviously, is 
a time when ISIS has a number of prominent wins in terms of 
awful, deadly attacks. They are also experiencing some 
significant losses, the loss of Sinjar, for example, and their 
major holding, their major victory in the past year, Ramadi, is 
now increasingly threatened. I think being able to publicize 
that is important.
    The final thing, because you asked about the influence of 
Iran and Russia, is Iran has been at the forefront of pushing 
back ISIS and this is not a fully positive thing at all. The 
atrocities being committed by the pro-Iran Shia militias 
against Sunnis is the kind of thing that lays the groundwork 
for this being a tragedy that will continue ad infinitum. So, 
that is another thing that is not getting attention right now 
that richly deserves it. Thank you.
    Chairman Johnson. Appreciate your insights. Mr. Jenkins.
    Mr. Jenkins. We do not like to use the term, or many people 
do not, but we are at war. We have been at war for a long time 
on this. That means we are going to incur costs, we are going 
to incur risks in this. We cannot say, on the one hand, we are 
committed to a war and we are going to go after these people, 
and on the other hand treat every time we confront a risk as if 
it is an outrage and a failure. And, so, if we are going to be 
as determined as I believe you are, then that has consequences, 
and it has consequences not just for what we do in terms of 
going after ISIL, but how this Nation ought to be--ought not to 
be panicked into fear as we go forward with this, which 
sometimes I think we tend to do.
    Chairman Johnson. Which, of course, the purpose of this 
hearing--I think we have done a pretty good job--is laying out 
the reality and getting a broad spectrum of viewpoints on this 
thing, and we have done a pretty good job of it. Mr. Bergen.
    Mr. Bergen. Chairman Johnson, I could not agree more. I 
mean, this has been an excellent hearing. A lot of light was 
shone on an issue that is being quite politicized.
    One thing that we do not want to be doing is coming back 
here in 2019 having the same hearing about Afghanistan, because 
the plan to draw down to zero in Afghanistan is basically not a 
good idea, and hopefully we do not--we have already seen how 
this video plays out. ISIS already has a small presence in 
Afghanistan, which is growing. So, we do not want to make the 
same mistake that we have made in Iraq.
    Chairman Johnson. Well, thank you, Mr. Bergen.
    I really want to thank all the witnesses. I come from a 
manufacturing background. I like information. I like facts. I 
hate demagoguery. So, all of you, and the previous panel, too, 
I really do appreciate the administration--this was a very fast 
turnaround for the administration to provide us witnesses and I 
truly appreciate that, and I think it inured to their benefit 
on this issue. So, again, I appreciate all of you for bringing 
forth some good information for the American people to hear.
    With that, this hearing record will remain open for 15 
days, until December 4 at 5 p.m., for the submission of 
statements and questions for the record.
    This hearing is adjourned.
    [Whereupon, at 5:03 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






                                 <all>
</pre></body></html>
